<html>
<title> - DEVELOPING RESEARCH PRIORITIES AT DHS'S SCIENCE AND TECHNOLOGY DIRECTORATE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                   DEVELOPING RESEARCH PRIORITIES AT
                      DHS'S SCIENCE AND TECHNOLOGY
                              DIRECTORATE

=======================================================================


                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 27, 2009

                               __________

                           Serial No. 111-60

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
52-896                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

               Subcommittee on Technology and Innovation

                      HON. DAVID WU, Oregon, Chair
DONNA F. EDWARDS, Maryland           ADRIAN SMITH, Nebraska
BEN R. LUJAN, New Mexico             JUDY BIGGERT, Illinois
PAUL D. TONKO, New York              W. TODD AKIN, Missouri
DANIEL LIPINSKI, Illinois            PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona               
GARY C. PETERS, Michigan                 
BART GORDON, Tennessee               RALPH M. HALL, Texas
                 MIKE QUEAR Subcommittee Staff Director
        MEGHAN HOUSEWRIGHT Democratic Professional Staff Member
            TRAVIS HITE Democratic Professional Staff Member
            HOLLY LOGUE Democratic Professional Staff Member
             DAN BYERS Republican Professional Staff Member
                  VICTORIA JOHNSTON Research Assistant


                            C O N T E N T S

                            October 27, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative David Wu, Chairman, Subcommittee on 
  Technology and Innovation, Committee on Science and Technology, 
  U.S. House of Representatives..................................     5
    Written Statement............................................     6

Statement by Representative Adrian Smith, Ranking Minority 
  Member, Subcommittee on Technology and Innovation, Committee on 
  Science and Technology, U.S. House of Representatives..........     6
    Written Statement............................................     7

                               Witnesses:

Mr. Bradley I. Buswell, Acting Under Secretary, Science and 
  Technology Directorate, U.S. Department of Homeland Security 
  (DHS)
    Oral Statement...............................................     8
    Written Statement............................................    10
    Biography....................................................    19

Dr. Phil E. Depoy, Vice Chairman, Homeland Security Science and 
  Technology Advisory Committee (HSSTAC) Assessment Panel
    Oral Statement...............................................    19
    Written Statement............................................    21
    Biography....................................................    23

Mr. David J. Berteau, Senior Advisor and Director, Defense-
  Industrial Initiatives, Center for Strategic and International 
  Studies, Washington, DC
    Oral Statement...............................................    24
    Written Statement............................................    26
    Biography....................................................    28

Dr. Cindy Williams, Chair, Panel on the DHS Science and 
  Technology Directorate, National Academy of Public 
  Administration; Shapiro Visiting Professor of International 
  Affairs, The Elliott School of International Affairs, George 
  Washington University; Principal Research Scientist, Security 
  Studies Program, Massachusetts Institute of Technology
    Oral Statement...............................................    29
    Written Statement............................................    30
    Biography....................................................    37

Discussion.......................................................    37

              Appendix: Answers to Post-Hearing Questions

Mr. Bradley I. Buswell, Acting Under Secretary, Science and 
  Technology Directorate, U.S. Department of Homeland Security 
  (DHS)..........................................................    50

Dr. Phil E. Depoy, Vice Chairman, Homeland Security Science and 
  Technology Advisory Committee (HSSTAC) Assessment Panel........    52

Mr. David J. Berteau, Senior Advisor and Director, Defense-
  Industrial Initiatives, Center for Strategic and International 
  Studies, Washington, DC........................................    53

Dr. Cindy Williams, Chair, Panel on the DHS Science and 
  Technology Directorate, National Academy of Public 
  Administration; Shapiro Visiting Professor of International 
  Affairs, The Elliott School of International Affairs, George 
  Washington University; Principal Research Scientist, Security 
  Studies Program, Massachusetts Institute of Technology.........    54


    DEVELOPING RESEARCH PRIORITIES AT DHS'S SCIENCE AND TECHNOLOGY 
                              DIRECTORATE

                              ----------                              


                       TUESDAY, OCTOBER 27, 2009

                  House of Representatives,
         Subcommittee on Technology and Innovation,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:08 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. David Wu 
[Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                   Developing Research Priorities at

                DHS's Science and Technology Directorate

                       tuesday, october 27, 2009
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Tuesday, October 27, 2009 the Subcommittee on Technology and 
Innovation of the Committee on Science and Technology will hold a 
hearing to review activities at the Science and Technology Directorate 
of the Department of Homeland Security (DHS S&T).

2. Witnesses

Mr. Brad Buswell is the Acting Under Secretary of the Science and 
Technology Directorate at the Department of Homeland Security.

Dr. Phil Depoy is the Chairman of the Homeland Security Science and 
Technology Advisory Committee.

Mr. David Berteau is the Senior Adviser and Director of the Defense 
Industrial Initiatives Group at the Center for Strategic and 
International Studies.

Dr. Cindy Williams is the Chair of the Committee on the DHS Science and 
Technology Directorate at the National Academy of Public 
Administration. She is also the Shapiro Visiting Professor of 
International Affairs at the Elliot School of International Affairs at 
George Washington University.

3. Brief Overview

    The hearing will have witnesses assess and discuss various elements 
of DHS S&T including the strategic planning process, stakeholder 
involvement in setting research priorities, and the role of basic 
research in the DHS S&T portfolio. Many of the questions posed to 
witnesses are ongoing concerns that Members of the Technology and 
Innovation Subcommittee have expressed in past hearings. It is the goal 
of the Subcommittee to highlight these issues for the benefit of the 
incoming Under Secretary of the Science and Technology Directorate.

4. Background

    The Department of Homeland Security's research and development 
portfolio is concentrated in the Science and Technology Directorate and 
the Domestic Nuclear Detection Office (DNDO). With an FY 2010 budget 
request of $968 million, DHS S&T is responsible for carrying out 
research on behalf of federal homeland security agencies and 
coordinating this research with other federal research entities. DNDO 
conducts research on the detection of nuclear devices and has a FY 2010 
budget request of $366 million.
    DHS S&T is currently organized in a matrix style management 
structure. There are three research directors that oversee portfolios 
containing long-term basic research, shorter-term applied research, and 
technology transition. These portfolios stretch across DHS S&T's six 
divisions:

         Chemical and Biological: detection and mitigation of chemical 
        and biological weapons threats

         Explosives: detection of and response to conventional (non-
        nuclear) explosives

         Human Factors: social science research to improve detection, 
        analysis, and understanding of threats posed by individuals as 
        well as how communities respond to disasters

         Infrastructure and Geophysical: identifies and mitigates 
        threats to critical infrastructure

         Border and Maritime: develops technologies for monitoring land 
        and maritime borders

         Command, Control, and Inter-operability: research and 
        development support for inter-operable communications and cyber 
        security R&D

5. Issues and Concerns

Science and Technology Directorate Strategic Plan
    Witnesses will discuss the methods and criteria used to develop 
research and development priorities at DHS S&T and how these may be 
improved. Witnesses were asked to discuss the need for a comprehensive 
threat assessment accounting for the impact and likelihood of potential 
threats. The concern is that the DHS S&T strategic plan does not 
provide a justified roadmap for future research, but only describes 
ongoing projects. Homeland security experts contend that a true 
strategic plan should be grounded in comprehensive threat assessments, 
detailed in how research priorities align with the needs of the 
customer, and coordinated with the research plans of other federal 
research entities.

Integrated Product Teams
    There are thirteen Integrated Product Teams (IPTs) in DHS S&T that 
provide input into the research plans based on their needs in the 
field. The IPT members are almost entirely made up of representatives 
from the various operational divisions within DHS (Coast Guard, 
Transportation Security Administration, Immigration and Customs 
Enforcement, etc.). Some examples of the corresponding IPTs include: 
First Responder, Border Security, Cyber Security, and People Screening. 
In past hearings, the Members of the Technology and Innovation 
Subcommittee voiced concerns about the fact that the Nation's local 
first responders are a critical recipient of DHS S&T work, but were not 
represented in the research planning process. As a result, DHS S&T 
formed a First Responder IPT to address the needs of the police, 
firefighters, and rescue personnel.
    For this hearing, witnesses will assess the IPT process and discuss 
whether the IPTs are fulfilling their intended role as vehicles for 
stakeholder input in research priorities. There are concerns over 
uneven levels of organization, representation, and impact of the IPTs.

Basic Research at the Centers of Excellence
    DHS S&T allocates 20 percent of its spending to basic research and 
supports twelve university-based Centers of Excellence. The 
Subcommittee has asked witnesses to discuss the role of basic research 
in the S&T portfolio and how this research is executed at the Centers 
of Excellence. Homeland security experts have expressed concern that 
the basic research work is not properly integrated into later phases of 
DHS S&T's research. There is also concern over how basic research 
priorities are set without the guidance of a true strategic plan.
    Chairman Wu. This hearing will come to order this 
afternoon. I want to welcome everybody to this afternoon's 
hearing on the Department of Homeland Security's Science and 
Technology Directorate (DHS S&T). Research and development 
efforts at the Directorate are critical to supporting not just 
the missions of the agencies within DHS, but our country's 
first responders all over this Nation and the world. This 
subcommittee continues to do all it can to assist the 
Directorate in its mission to deliver quality technical 
solutions to all of its stakeholders.
    In past hearings, this subcommittee has made many 
recommendations to the Directorate, and I am very pleased to 
see that some of these recommendations have been acted upon. In 
response to stakeholder and Subcommittee requests, the 
Directorate has added a 13th Integrated Product Team to give 
local fire, rescue, and police workers a direct voice in 
federal research priorities.
    I am also pleased to see that funding for basic research is 
now 20 percent of the Directorate's portfolio. As you know, 
this subcommittee firmly believes that basic research plays a 
critical role in the R&D (research and development) process. By 
increasing the presence of basic research at the Directorate, 
it has shown a commitment to not only solve today's problems 
but also to position itself to meet future challenges.
    While there have been many improvements at the Directorate, 
I continue to have some concerns. Although the Integrated 
Product Teams (IPTs) now include all of the major stakeholders, 
there seems to be some inconsistency with how efficiently and 
effectively the IPTs operate. I would like to hear from the 
witnesses about ways we can ensure that the IPTs are properly 
organized to enable the highest levels of collaboration between 
the Directorate and its stakeholders.
    Finally, there is one area of great concern that has yet to 
be addressed by the Directorate. Over the course of multiple 
hearings, this subcommittee has expressed concern about the 
lack of a comprehensive threat assessment as a foundation for 
determining research priorities. The current strategic plan 
does little to define the direction of research activities and 
is not grounded in a formal threat assessment. I do not find it 
acceptable. I think this subcommittee has trouble with the 
thought that plans are made without reference to a proper 
analysis of threats and the dangers they pose, especially when 
considering that we rely on the Directorate's plans to protect 
our country from all future threats.
    While I am encouraged by progress in many areas of the 
Science and Technology Directorate, I am somewhat frustrated at 
the lack of such a crucial element in the effectiveness of 
almost a $1 billion dollar research enterprise. I am eager to 
hear the witnesses' expert opinions on these concerns and 
moreover would strongly encourage the incoming Under Secretary 
to address these issues with utmost urgency.
    And at this point, I would like to recognize my friend and 
colleague, the gentleman from Nebraska, for his opening 
statement.
    [The prepared statement of Chairman Wu follows:]
                Prepared Statement of Chairman David Wu
    I want to welcome everyone to this afternoon's hearing on the 
Department of Homeland Security Science and Technology Directorate. 
Research and development efforts at the Directorate are critical to 
supporting not just the missions of the agencies within DHS, but our 
country's first responders. This subcommittee continues to do all it 
can to assist the Directorate in its mission to deliver quality 
technical solutions to all stakeholders.
    In past hearings, this subcommittee has made many recommendations 
to the Directorate and I am very pleased to see that some of these 
recommendations have been acted upon. In response to stakeholder and 
Subcommittee requests, the Directorate has added a 13th Integrated 
Product Team--the First Responder IPT--to give local fire, rescue, and 
police workers a direct voice into federal research priorities.
    I am also pleased to see that funding for basic research is now 20 
percent of the Directorate's portfolio. As you know, this subcommittee 
firmly believes that basic research plays a critical role in the R&D 
process. By increasing the presence of basic research at the 
Directorate, it has shown a commitment to not only solve today's 
problems, but position itself to meet future issues head-on.
    While there have been many improvements at the Directorate, I 
continue to have many concerns. Although the Integrated Product Teams 
now include all of the major stakeholders, there seems to be an 
inconsistency with how efficiently and effectively the IPTs operate. I 
would like to hear from witnesses about ways we can ensure that the IPT 
process is properly organized to enable the highest levels of 
collaboration amongst the Directorate and its stakeholders.
    Finally, there is one area of great concern that has yet to be 
addressed by the Directorate. Over the course of multiple hearings, 
this subcommittee has expressed the need for a comprehensive threat 
assessment to use as a foundation for determining research priorities. 
The current strategic plan does little to define the direction of 
research activities and is not grounded in any formal threat 
assessment. It is unacceptable that plans are made without a proper 
analysis of threats and the dangers they pose, especially when 
considering that we rely on the Directorate's plans to protect our 
country from future threats.
    While I am encouraged by progress in many areas of the Science and 
Technology Directorate, I am increasingly frustrated at the lack of 
such a crucial element to the effectiveness of an almost one billion 
dollar research investment. I am eager to hear the witnesses' expert 
opinions on these concerns and more, and would strongly encourage the 
incoming Under Secretary to address these issues with the utmost 
urgency.

    Mr. Smith. Thank you, Mr. Chairman, for calling this 
hearing today to examine the activities of the Department of 
Homeland Security's Science and Technology Directorate.
    In 2002, this committee played a key role in shaping the 
creation of DHS, specifically calling for the establishment an 
S&T Directorate within the new department to fund R&D and 
advised the Secretary on S&T related policies.
    While agency growing pains always present a challenge, in 
the seven years since its creation, the Directorate has 
demonstrated respectable progress refining its roles and 
responsibilities in instituting a sound organizational 
structure and operating processes.
    However, one of the critical policy challenges the 
Committee recognized in 2002 still remains, development of a 
true strategic plan to inform, prioritize and guide the work of 
the Directorate.
    In one sense, the absence of a strategic plan reflects the 
magnitude of the challenge inherent in the Department's 
mission. From our transportation and infrastructure to our food 
and agricultural system to our land and seaports of entry, just 
to name a few, the diversity of potential terrorist threats and 
targets to the homeland is certainly endless. This makes the 
management and policy issues associated with quantifying and 
prioritizing risks and associated S&T activities a monumental 
task. But the high degree of difficulty doesn't make it any 
less important. Without an effective strategic plan, the 
Directorate has no foundation from which to systematically 
guide development of priorities and measure performance toward 
objectives.
    So I hope and expect the Directorate will expedite such a 
plan in the coming months. I also look forward to hearing from 
the Administration and other witnesses regarding a number of 
other, more specific issues which are important to the success 
of the Directorate and the Department going forward. Among 
these are the evolution of the S&T Directorate's integrated 
product teams and the balance of and focus on activities across 
the R&D pipeline from basic research to technology development.
    I certainly thank the witnesses for taking your time today, 
and I do look forward to the discussion. Thank you.
    [The prepared statement of Mr. Smith follows:]
           Prepared Statement of Representative Adrian Smith
    Thank you, Mr. Chairman, for calling this hearing today to examine 
the activities of the Department of Homeland Security (DHS) Science and 
Technology (S&T) Directorate. In 2002, this committee played a key role 
in shaping the creation of DHS, specifically calling for establishment 
of an S&T Directorate within the new department to fund R&D and advise 
the Secretary of Homeland Security on S&T-related policies.
    While agency ``growing pains'' always present a challenge, in the 
seven years since its creation, the S&T Directorate has demonstrated 
respectable progress, refining its roles and responsibilities and 
instituting a sound organizational structure and operating processes. 
However, one of the critical policy challenges the Committee recognized 
in 2002 still remains: development of a true strategic plan to inform, 
prioritize, and guide the work of the Directorate.
    In one sense, the absence of a strategic plan reflects the 
magnitude of the challenge inherent in the Department's mission. From 
our transportation and infrastructure to our food and agricultural 
system to our land and sea ports of entry--to name a few--the diversity 
of potential terrorist threats and targets to the homeland is seemingly 
endless. This makes the management and policy issues associated with 
quantifying and prioritizing risks and associated S&T activities a 
monumental task.
    But the high degree of difficulty doesn't make it any less 
important. Without an effective strategic plan, the Directorate has no 
foundation from which to systematically guide development of priorities 
and measure performance toward objectives. So I hope and expect the 
Directorate will expedite such a plan in the coming months.
    I also look forward to hearing from the Administration and other 
witnesses regarding a number of other, more specific issues which are 
important to the success of the Directorate and the Department going 
forward. Among these are the evolution of the S&T Directorate's 
Integrated Product Teams (IPTs) and the balance of and focus on 
activities across the R&D pipeline, from basic research to technology 
development.
    I thank the witnesses for being with us today, and I look forward 
to a productive discussion.

    Chairman Wu. Thank you very much, Mr. Smith. If there are 
any other Members who wish to submit opening statements, the 
statements will be added to the record at this point.
    And now I would like to introduce our witnesses for this 
afternoon. First, Mr. Brad Buswell is the Acting Under 
Secretary of the Science and Technology Directorate at the 
Department of Homeland Security. Dr. Phil Depoy is the Chairman 
of the Homeland Security Science and Technology Advisory 
Committee (HSSTAC). Mr. David Berteau is the Senior Advisor and 
Director of the Defense Industrial Initiatives Group at the 
Center for Strategic and International Studies. And finally, 
Dr. Cindy Williams is the Chair of the Panel on the DHS Science 
and Technology Directorate of the National Academy of Public 
Administration, and she is also the Shapiro Visiting Professor 
of International Affairs at the Elliott School of International 
Affairs at George Washington University and a principal 
research scientist at the Securities Studies Program at MIT.
    Each of you will have five minutes for your spoken 
testimony. Your written testimony will be included in the 
record in their entirety, and when you complete all of your 
testimony, we will begin with questions, and each Member will 
have five minutes to question the panel.
    Mr. Buswell, please proceed.

 STATEMENT OF MR. BRADLEY I. BUSWELL, ACTING UNDER SECRETARY, 
SCIENCE AND TECHNOLOGY DIRECTORATE, U.S. DEPARTMENT OF HOMELAND 
                         SECURITY (DHS)

    Mr. Buswell. Thank you very much, Chairman Wu, Ranking 
Member Smith, and other Members and staff. It is an honor to 
appear here before you here today, and it is an honor to appear 
with such a distinguished panel. I commend you on the assembly. 
I look forward to talking to you today about the progress that 
we have made in developing the Science and Technology 
Directorate and placing ourselves in a position to provide 
advanced technological solutions to protect the American people 
and to protect the critical infrastructures that we depend on. 
As you said, Mr. Chairman, the Directorate is charged with 
providing technical support and tools to the DHS operating 
components and as importantly or perhaps even more importantly, 
to our nation's first responders, those brave men and women who 
are on the front lines of homeland security every day.
    Let me just start by saying I am grateful for the strong 
leadership of Secretary Napolitano. She has emphasized 
consistently the importance of science and technology and 
securing our nation and has also repeatedly underscored the 
importance of strengthening the relationships with the State, 
local, tribal and territorial agencies, and I think S&T is 
making significant inroads in that regard, as you mentioned in 
your opening statement. Also, I greatly appreciate the 
leadership of the Congress and this subcommittee's support. The 
informed counsel of both Members and staff has been invaluable 
to our efforts to position the Directorate for accountability 
and tangible results.
    The Subcommittee is familiar with the S&T Directorate's 
efforts over the past three years to realign the structure, 
portfolio and business operations in an effort to expedite the 
delivery of advanced technological solutions to our customers, 
and I am pleased to report that that restructuring has been 
fully implemented, and we are wholly engaged in responding to 
the near- and the long-term technology capability needs of the 
components and other customers.
    You specifically asked that I address three areas of 
interest to the Subcommittee. First of all, our priorities in 
developing the research and development portfolio, the role on 
the caps on integrated product teams in determining those 
priorities, and the role of basic research, both in the overall 
S&T portfolio and specifically at the university-based Centers 
of Excellence.
    The first two are really closely intertwined. The research 
and development priorities of the Directorate are primarily 
customer driven through our Capstone integrated product teams, 
or IPTs. The IPTs provide direct stakeholder input into the 
selection and prioritization of our research investments, and 
our customers chair those IPTs. So they establish their 
capability priorities based on their assessment of risk in the 
mission areas for which they are responsible. This gets a 
little bit to your point of a comprehensive threat assessment. 
We rely on our customers to incorporate the threat as they see 
it into their overall risk assessment and identify technology 
gaps in a priority way to address those risks.
    The customer-driven Capstone IPT process directly drives 
about 50 percent of our overall investment, but it also 
importantly informs the rest of the portfolio's basic research 
and innovation. What we learned from our stakeholders through 
the process about their operations and about their future 
capability needs help influencing those other investments that 
we also make with the innovation and the basic research 
portfolio.
    For those reasons, all three of the portfolio members, 
basic research, innovation and transition, are participants in 
the IPT process. As I said, the more insight that we gain, the 
better we understand and the better we are positioned to 
identify promising areas of research and explore innovative 
solutions that are outside the development timeframe or risk 
tolerance of the near-term focused IPT process.
    While there is room for improvement in any process, I am 
pleased with the progress we have made in implementing and 
institutionalizing the Capstone IPTs. As you said, I am 
especially proud of the addition this year of the 13th Capstone 
IPT in support of the first responders. I am happy to provide 
more information on that during the Q&A session if you are 
interested.
    Let me talk quickly about, briefly, the basic research 
portfolio. Basic research really fulfills two very important 
roles in the S&T Directorate. First, it lays the foundation for 
future technology development. It is what we use to keep the 
technology pipeline full. We invest in projects that are 
addressing capability needs for which we have no near-term 
solution or with existing or near-existing technologies or the 
solutions are of too high a risk for the customers to be able 
to rely on. It also allows us to make investments based on what 
science has to offer. So with a small investment, we may be 
able to cultivate a promising technology that would yield a 
significant life-saving capability.
    Secondly, our investment into basic research which is 
conducted primarily at our national laboratories and our 
university-based Centers of Excellence also serves to develop 
the scientific workforce that this country will need to 
continue developing scientific understanding and technology in 
the homeland security area, specifically as far as we are 
concerned but in all areas well into the future.
    And given the broad spectrum of science and technology 
requirements associated with the Homeland Security mission, we 
value our relationship with the Department of Energy (DOE) 
National Laboratories and with their renowned interdisciplinary 
capabilities as well as the university-based Centers of 
Excellence.
    Let me conclude by addressing the topic that Congressman 
Smith raised about the development of a strategic plan. The 
last strategic plan that we published was in June of 2007 
following a major reorganization of the Directorate and the 
research portfolio. As was appropriate at that time, that plan 
was focused on establishing the business practices that were 
necessary to make the S&T Directorate relevant to the homeland 
security enterprise. Based upon the strategic goals and 
objectives that are being identified in the forthcoming 
Quadrennial Homeland Security Review, we will be updating that 
strategic plan over the next few months. And this update will 
be more in line with the guidance published by OMB (Office of 
Management and Budget) and GAO (Government Accountability 
Office) for effective strategic planning.
    So again, Members of the Subcommittee, thank you for all 
you do in support of our mission, and thank you for the 
opportunity to meet with you today and I look forward to your 
questions.
    [The prepared statement of Mr. Buswell follows:]
                Prepared Statement of Bradley I. Buswell

INTRODUCTION

    Good afternoon, Chairman Wu, Congressman Smith, and distinguished 
Members of the Subcommittee. I am honored to appear before you today to 
report on the progress of the Department of Homeland Security's (DHS) 
Science and Technology Directorate (S&T Directorate) in advancing 
technological solutions to protect the American people and the critical 
infrastructures our society depends upon.
    The S&T Directorate is charged with providing technical support and 
tools to the major DHS operating components and to our nation's first 
responders--the brave men and women who routinely face risk on the 
front lines of homeland security. I appreciate the Subcommittee's 
support of the S&T Directorate as it continues to mature and grow in 
areas critical to our mission of enabling technology applications to 
address critical gaps in homeland security. Toward this end, the 
Directorate provides technical support and tools to the major DHS 
operating components, and to our Nation's first responders--the brave 
men and women who routinely face risk on the front lines of homeland 
security.
    I am very grateful for the strong leadership of Secretary 
Napolitano, who not only has emphasized the importance of science and 
technology in securing our nation, but has also repeatedly underscored 
the importance of strengthening relationships with State, local, tribal 
and territorial agencies--an area where the S&T Directorate continues 
to make significant inroads.
    I greatly appreciate the Subcommittee's support of the S&T 
Directorate as it pursues its mission. I appreciate the leadership 
Congress has shown in supporting the S&T Directorate's endeavors. I am 
thankful for the engaged and non-partisan nature of our relationship. 
Our collaboration with both Congressional Members and their staffs has 
been invaluable to the Department's efforts to position the S&T 
Directorate for accountability, tangible results, and success.
    The Subcommittee is familiar with the S&T Directorate's efforts 
over the past three years to realign its structure, research portfolio, 
and business operations in an effort to expedite the delivery of 
advanced technological solutions to our customers. I am pleased to 
report that the restructuring plan has been fully and successfully 
implemented. The S&T Directorate is now wholly engaged in responding to 
the near- and long-term technological capability needs of the DHS 
components and their customers.
    This testimony will primarily address three areas of interest 
expressed by the Subcommittee: the S&T Directorate's research and 
development (R&D) priorities and planning; the role of Capstone 
Integrated Product Teams (IPTs) in determining research priorities; and 
the role of basic research, both in the overall S&T research portfolio 
and specifically at the Homeland Security Centers of Excellence. I will 
also discuss some of the S&T Directorate's recent accomplishments and 
ongoing activities in these and other significant areas.

S&T DIRECTORATE RESEARCH AND DEVELOPMENT PRIORITIES AND PLANNING

    The research and development priorities of the S&T Directorate are 
primarily customer-driven through our Capstone IPTs, a process 
described in detail later in this testimony. The customers and 
stakeholders in this iterative process play an important role in the 
informing the S&T Directorate's decisions about its research and 
development investments.
    The S&T Directorate's Basic Research projects are initiated in one 
of two ways. First, DHS components can express a technological need for 
which we have no near-term solutions with existing or near-existing 
technologies. Second, Basic Research projects may also originate from 
what science has to offer. With a small investment, DHS can help 
cultivate a promising technology that could ultimately yield a 
significant life-saving capability.
    The S&T Directorate last published a Strategic Plan in June 2007. 
This plan focused on establishing the business practices by which the 
S&T Directorate would address the research and development needs of the 
homeland security enterprise. Based upon the forthcoming Quadrennial 
Homeland Security Review, we will be updating our strategic plan to 
support the strategic goals and objectives determined by the Review. 
This update will be in accordance with the guidance outlined in the OMB 
Circular A-11, Part 6.
    The S&T Strategic Plan is a separate document from the National 
Homeland Security Science and Technology Strategy that the S&T 
Directorate is developing as directed by the Homeland Security Act of 
2002, Section 302(2), which states that the Secretary of Homeland 
Security, through the Under Secretary for Science and Technology, shall 
develop ``in consultation with other appropriate executive agencies, a 
national policy and strategic plan for, identifying priorities, goals, 
objectives and policies for, and coordinating the Federal Government's 
civilian efforts to identify and develop countermeasures to chemical, 
biological, radiological, nuclear, and other emerging terrorist 
threats, including the development of comprehensive, research-based 
definable goals for such efforts and development of annual measurable 
objectives and specific targets to accomplish and evaluate the goals 
for such efforts.''
    The S&T Directorate's 2008 report, ``Coordination of Homeland 
Security Science and Technology,'' was an important step toward 
establishing a national strategy. The report laid out the role and 
responsibilities of federal agencies as well as the initiatives 
underway to counter threats to homeland security. The S&T Directorate 
is currently revising this 2008 effort in conjunction with the QHSR.

Strategic Coordination: External and Internal

    The S&T Directorate's Strategic Plan provides the business 
framework that S&T uses to carry out its mission. A key aspect of the 
plan involves formal efforts to coordinate homeland security research 
and development with other federal agencies and the private sector. 
This coordination is extensive--for example, the S&T Directorate has 30 
chairs and members of relevant National Science and Technology Council 
committees, subcommittees, and working groups.
    Through the use of formal processes, the S&T Directorate limits 
unnecessary duplication of effort and leverages the valuable skills, 
experience and resources of other government agencies and the private 
sector. These formal processes include participation in interagency 
groups that work to coordinate research and development across Federal, 
State, local and tribal governments and in the private sector.
    Inputs from the S&T Directorate's interagency and private sector 
coordination efforts are reflected in the Directorate's 2008-2013 Five-
Year Research and Development Plan, which lays out the blueprint for 
its investment portfolio and outlines the S&T Directorate's research 
emphasis, programs, and key milestones.
    The following table provides examples of participation by S&T 
Directorate divisions and offices in formal interagency coordination 
groups.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In addition, the S&T Directorate facilitates coordination with 
customers and technology providers across its divisions and offices. 
For example:

        <bullet>  The S&T Directorate's Transition Office coordinates 
        with all S&T divisions to minimize duplication and ensure that 
        the S&T Directorate is leveraging technology available in both 
        the government and private sectors. The Transition Office 
        facilitates 13 customer-led Capstone Integrated Product Teams 
        (IPTs) to ensure visibility into customers' capability gaps and 
        technology needs. Two formal Capstone IPT reviews are conducted 
        each year to provide customer visibility into the S&T 
        Directorate's cross-functional programs and facilitate 
        discussion on available DHS-external technologies/capabilities.

        <bullet>  S&T has an Interagency and First Responder Program 
        Division (IAD) to leverage other government research and 
        development efforts. IAD coordinates closely with the 
        Transition Office and participates in the Capstone IPT reviews. 
        With knowledge of customer technology needs identified through 
        the Capstone IPT process, IAD coordinates with other government 
        entities to explore and/or leverage alternative technologies 
        available through other government entities.

        <bullet>  S&T's Commercialization Office is responsible for the 
        identification, evaluation and rapid commercialization of 
        technology directly from the private sector to meet the 
        operational requirements of our customers. Since the 
        Commercialization Office is part of the Transition effort, they 
        have firsthand knowledge of customer technology needs 
        identified through the Capstone IPT process and the supporting 
        S&T Directorate efforts. The Commercialization Office works 
        closely with S&T divisions to ensure there is no duplication of 
        effort and that S&T Directorate efforts are focused only in 
        areas where no rapid commercialization solution exists.

        <bullet>  The 1401 Technology Transfer Program, which is also 
        housed in the Transition Office, identifies and transfers DOD 
        technology, items and equipment of use to the federal, State, 
        tribal, territorial and local first responder community. This 
        program strengthens coordination.

International Research Coordination

    In accordance with Title 6, United States Code, Section 195c 
(``Promoting anti-terrorism through international cooperation 
program''), the S&T Directorate's International Cooperative Programs 
Office facilitates and supports international cooperative activity 
through mechanisms such as formal agreements with nine partner nations: 
Canada, the United Kingdom, Australia, Singapore, Sweden, Mexico, 
Israel, France, and Germany. Under these agreements, the S&T 
Directorate is conducting coordinated and joint research projects, 
technical demonstrations, scientific workshops, and exchanges of 
scientific and technological information.
    Through its academic grant program for International Research in 
Homeland Security Mission Areas, the S&T Directorate has sponsored 22 
international research efforts since 2007. These efforts involve 
cooperation between U.S. academic institutions and those in each of the 
S&T Directorate's nine formal partners as well as Italy, Kenya, and 
Peru.
    Each of these projects requires the participation of at least one 
U.S. and one foreign institution. To ensure relevance to DHS and S&T 
Directorate requirements, these institutions coordinate directly with 
S&T's technical divisions and, as appropriate, with customers. 
Customers include U.S. Customs and Border Protection (for tunnel 
detection), the Transportation Security Administration (for protection 
of mass transit infrastructure), and the U.S. Coast Guard (for improved 
maritime surveillance using teams of unmanned aerial vehicles).
    During the past year, the S&T Directorate conducted numerous 
successful proofs-of-concept. One proof-of-concept, in cooperation with 
Australia, involved an entirely new form of blast-resistant glass. With 
Mexico, the S&T Directorate developed novel approaches to determine 
hurricane intensity using underwater acoustic sensors. The S&T 
Directorate also worked with Canada on a proof-of-concept for detection 
of clandestine tunnels using seismic waves.

ROLE OF INTEGRATED PRODUCT TEAMS IN DETERMINING PRIORITIES

    The Capstone Integrated Product Teams (IPTs) are designed to, and 
have proven to fulfill, their intended purpose of providing direct 
stakeholder input into S&T Directorate research investments. The 
customer-driven Capstone IPT process informs research across the entire 
S&T Directorate and directly guides approximately 50 percent of our 
investment. DHS customers chair the Capstone IPTs and establish their 
desired capability priorities based on their assessment of risk in the 
mission areas for which they are responsible.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Within the S&T Directorate's Transition portfolio, the stakeholders 
directly drive investment based upon their needs and solutions 
recommended by the S&T Directorate. In addition, what we learn from our 
stakeholders about their operations and future capability gaps helps 
influence our own investment decisions in our longer-range Basic 
Research and Innovation/Homeland Security Advanced Research Projects 
Agency (HSARPA) portfolios. The more insight we gain regarding current 
and future threats and the capability gaps of our stakeholders, the 
better positioned we are to identify promising areas of research and 
explore innovative solutions that are outside the development timeframe 
for the nearer-term-focused Transition portfolio.
    Within the S&T Directorate, we need to continue our efforts to put 
stakeholders at the head of the table--they are the experts on their 
operations and capability gap priorities. We also need to continue to 
mature our internal processes for delivering the technology to our 
stakeholders. This includes developing program manager tools, the 
execution of Technology Transition Agreements to ensure we are 
synchronized with the end-users, and continued dialogue with 
stakeholders to ensure that the S&T Directorate's effort remains 
aligned to their needs.
    Externally, the S&T Directorate needs to work with the stakeholders 
to develop a more uniform methodology across DHS for identifying and 
prioritizing capability gaps. We will work with stakeholders to arrive 
at a consistent, analytic approach to identifying capability gaps and 
developing operational requirements documents. This will help further 
ensure that our scientists and technologists develop solutions that 
meet the highest-priority needs of the stakeholders.
    All three S&T portfolios participate in the IPT process. While the 
IPT members drive the selection of Transition projects, the needs 
expressed at the IPTs also inform the selection of projects in our 
Basic Research portfolio and similarly inform the higher-risk/high pay-
off initiatives undertaken by our Innovation/HSARPA portfolio.

IPT Example: Working Group Deliberations Inform First Responder IPT

    The First Responder Research, Development, Testing, and Evaluation 
(RDT&E) Working Group is composed of 38 voting positions that encompass 
major first responder associations and practitioners that include 
firefighters, emergency managers, law enforcement officers and 
emergency medical services providers. The Working Group practitioners 
represent State, local and tribal first responders from across the 
country. The S&T Directorate is seeking a territorial representative to 
ensure the full complement of governmental voices is represented.
    The First Responder RDT&E Working Group convened most recently at 
the S&T Directorate offices on September 22, 2009. Members of the DHS 
First Responder Integrated Product Team were invited to observe and 
contribute to the Working Group deliberations.
    During the meeting, the Working Group identified four major cross-
cutting capability gaps that were deemed to affect all first responder 
disciplines while Working Group subgroups identified sector-specific 
capability gaps. For example, major cross-cutting capability gaps were 
identified as the lack of a standard common operating platform to link 
communication and data systems across the country; improved respiratory 
safety/protection; and the need for better tools for end-to-end 
incident management.
    The Working Group has completed its initial task of identifying 
current capability gaps. Next, its members will develop detailed 
operational requirements to ensure the gaps are clearly defined. The 
First Responder IPT will meet as well to prioritize the capability gaps 
and begin to review potential RDT&E programs designed to solve existing 
problems and field solutions.
    The overarching goal of the First Responder IPT is to use the 
process to close the capability gaps that exist in this community by 
putting viable solutions into the hands of our responders.
    S&T's IPT process is new to the first responder community. Members 
of the First Responder RDT&E Working Group have expressed support for 
the process and a willingness to help the S&T Directorate develop it in 
the first responder community. The process will mature as the IPT, the 
S&T Directorate and the Working Group continue our collaboration to 
refine identified capability gaps and develop concrete operational 
requirements to drive new science and technology development or 
applications.

ROLE OF BASIC RESEARCH: CENTERS OF EXCELLENCE AND DHS S&T

    In September 2009, the S&T Directorate issued its Basic Research 
Strategy to guide long-term homeland security research investments. 
This will inform the development of the next iteration of the S&T 
Directorate Strategic Plan.
    The overall basic research vision for the S&T Directorate is:

         Developing and accessing an internationally recognized 
        scientific workforce creating new knowledge and scientific 
        understanding in focus areas of enduring relevance to the 
        homeland security enterprise.

    Given the broad spectrum of science and technology requirements 
associated with the homeland security mission, the Department of Energy 
(DOE) National Laboratories provide unique, renowned interdisciplinary 
capabilities, as well as world-class research facilities. In FY 2009, 
eight DHS components and offices, including S&T, utilized the DOE 
National Laboratories and the in-house S&T labs for homeland security-
related research and development as well as technology transition. This 
R&D includes developing advanced screening and detection technologies; 
designing multi-scale and simulation capabilities in the event of a 
biological attack or a disease outbreak; and designing resilient 
electrical grid technologies to ensure better protection of our 
nation's critical infrastructures. We anticipate the continued use of 
the DOE laboratories to address the cross-cutting, long-term basic 
research challenges of the S&T mission.
    In addition to our laboratories, the S&T Directorate sponsors 11 
university Centers of Excellence (COE). While these COEs are managed by 
our Office of University Programs, the key to their success has been 
the close involvement with each of the S&T Directorate's six divisions. 
Through their active engagement in the selection and management of the 
COEs, divisions are well positioned to ensure that their research 
initiatives are closely aligned with the S&T Directorate's overall 
research strategy.

DHS S&T-Sponsored Research at the COEs: From Research to Reality

    The DHS COEs, with over 350 current projects, deliver results along 
the entire research and development spectrum, from basic research 
results published in prestigious scientific journals to practical 
research-driven tools that DHS components and local and State first 
responders are already using. Even looking at a single COE program 
proves the benefit of this cost-effective model. For example, a single 
project at the National Center for Food Protection and Defense 
identified the source of a Salmonella St. Paul outbreak as jalapeno 
peppers from Mexico, and may have saved Florida tomato growers up to 
the equivalent of six years of S&T's COE budget.
    Now five years old, the COEs are increasingly producing usable 
results for S&T Directorate customers. As evidence, the COEs have 
generated over $50 million in additional funds for customer-directed 
research. As planned by the S&T Directorate, the COEs are well on their 
way to being self-sufficient within a decade. The COE customer base has 
grown rapidly over the last couple of years--so rapidly, in fact, that 
we have had to develop more efficient financial mechanisms for our 
customers to access the COEs expertise, facilities and products. 
Additionally, now that some of the COE projects are ready, we are 
piloting ``research-to-reality'' university research transition 
approaches in several law enforcement venues. These approaches will 
disseminate applicable research results to many law enforcement 
agencies. Below is a sampling of the S&T Directorate's successful 
transition of COE results to our federal, State and local partners.

National Consortium for the Study of Terrorism and Responses to 
                    Terrorism (START) (University of Maryland)

        <bullet>  START developed the Global Terrorism Database (GTD), 
        the most comprehensive unclassified database on terrorist 
        events in the world. The GTD includes more than 80,000 events 
        stretching from 1970 through 2007 and is continuously being 
        updated. START has provided GTD data and access on request to 
        several different offices within DHS alone (e.g., S&T Human 
        Factors/Behavioral Sciences Division, Office of Intelligence 
        and Analysis and the Transportation Security Administration).

        <bullet>  START is studying how communities can enhance their 
        resilience to a potential terrorist threat in the United States 
        through two additional products: (1) the Community Assessment 
        of Resilience Tool (CART), which is a tool for communities to 
        conduct self-assessments on core components of community 
        resilience; and (2) the Social Vulnerability Index (SoVI)--a 
        county-level mapping of the United States and its 
        infrastructure and potential vulnerabilities to all types of 
        catastrophic events. Local planners throughout the country are 
        using CART and SoVI to set priorities for enhancing resilience.

Command, Control and Inter-operability (CCI) COE (Rutgers and Purdue 
                    universities)

        <bullet>  The CCI COE has transitioned several visual and data 
        analytics technologies to end-users in partnership with the 
        Pacific Northwest National Laboratory, START and a vendor 
        partner. This COE-led team developed and deployed law 
        enforcement information analysis tools to the Port Authority of 
        New York and New Jersey Police Department, enabling analysis of 
        crime incident data in conjunction with other sources, 
        including START's GTD. A similar visual and data analytics 
        system is being deployed to the New Jersey State Police.

        <bullet>  The Command, Control and Inter-operability Division's 
        ``Research to Reality'' technology transition model, which 
        engages directly with industry partners to commercialize 
        research results, is bringing visual and data analytics 
        technologies to a wider group of law enforcement agencies. The 
        specific technologies involved are known as LEIF (Law 
        Enforcement Information Framework) and FADE (Fused Analytic 
        Desktop Environment). Both involve upgraded features first made 
        available in the ComStat II application developed specifically 
        for the Port Authority and described directly above. The 
        agencies include the Port Authority of New York and New Jersey, 
        San Diego's Automated Regional Justice Information System, the 
        Seattle area police departments, the New Jersey State Police, 
        and the Lehigh Valley (PA) Police. New efforts are being 
        initiated with in the Baltimore-Washington area including the 
        Maryland State Police, Baltimore County Police, Baltimore City 
        Police and several other agencies in the region.

Foreign Animal and Zoonotic Disease (FAZD) COE (Texas A&M University) 
                    and the National Center for Food Protection and 
                    Defense (NCFPD) (University of Southern 
                    Mississippi)

    These two COEs develop, advance and share customizable technologies 
with DHS and customers working to protect our food and agriculture 
lifelines.

        <bullet>  FAZD worked with the CCI COE to develop the Dynamic 
        Preparedness System (DPS) and Biosurveillance Common Operating 
        Picture (BCOP) technologies that will serve as decision support 
        tools for incident commanders for health emergencies across the 
        country. DPS and BCOP also act as customizable training 
        programs for users. Following rigorous testing, the DHS 
        National Biological Information Center is transitioning BCOP 
        into an operational environment where it will provide critical 
        and up-to-date health emergency information to thousands of 
        DHS' federal, State and local partners, hospitals and medical 
        and veterinary practitioners.

        <bullet>  FAZD's Rift Valley Fever candidate vaccine, derived 
        from the MP12 antigen developed for human use, is currently 
        moving to commercial production trials in sheep. This product 
        is being enhanced in further research with a genetic marker 
        that allows the immunity resulting from vaccination to be 
        distinguished from that associated with active disease, thereby 
        allowing immunized animals to safely move through interstate 
        commerce.

        <bullet>  NCFPD has established itself as a nationally and 
        internationally renowned R&D center for food protection and 
        defense. The Center is developing expertise and tools to 
        identify and reduce vulnerabilities to the Nation's food system 
        from terrorist or natural causes.

        <bullet>  NCFPD has provided over 25 congressional testimonies, 
        responded to over 700 requests for assistance or advice from 
        DHS, Federal, State and local government agencies, and 
        matriculated over 100 students in relevant disciplines.

        <bullet>  NCFPD's FoodShield is a research-based communication-
        sharing portal for use by DHS, FDA, and USDA during food 
        related incidents. FoodShield is linking agencies to improve 
        communication during food events, and enabling all levels of 
        government to share resources during food recall and response 
        events.

        <bullet>  NCFPD's and BT Safety's Consequence Management System 
        (CMS) serves as an integrative tool across the breadth of NCFPD 
        projects to provide an advanced visual model for predicting, 
        tracking, and assessing the public health and economic impact 
        of a catastrophic food system incident.

        <bullet>  NCFPD has provided expert advice to both food 
        importing and exporting nations in order to keep commerce 
        moving and food supplies safe. The Center is working with 
        Chinese officials to restructure the country's food export 
        system and with Chilean officials to obtain data on production 
        chain models. NCFPD hosted an exercise on food supply 
        protection for G8 nation participants from Japan, Canada, 
        France Germany, the United Kingdom and the United States. The 
        exercise aimed to strengthen coordination, cooperation, and 
        communication between G8 nations in the event of an intentional 
        contamination of the food supply.

Center for Risk and Economic Analysis of Terrorism Events (CREATE) COE 
                    (University of Southern California)

        <bullet>  The HS-ANALISER (Homeland Security-Analytical, 
        Modeling, Integrated and Secured Environment and Repository) is 
        a software tool for policy decision-makers and risk analysts.

        <bullet>  Assistant for Randomized Monitoring Over Routes 
        (ARMOR) software provides a methodology and tool for creating 
        randomized plans and schedules for monitoring, inspecting, and 
        patrolling, so that even if an attacker observes the plans, 
        they cannot predict its progression, thus providing risk 
        reduction via deterrence while guaranteeing a specified level 
        of protection quality. ARMOR was deployed at the Los Angeles 
        International Airport (LAX) in August 2007 to randomize 
        checkpoint deployment and canine unit allocation. Police 
        officers attending the six-month evaluation of ARMOR declared 
        it a success, leading to its permanent deployment at LAX.

        <bullet>  In coordination with the S&T Command, Control and 
        Inter-operability Division and the Federal Air Marshal Service 
        (FAMS), CREATE developed the Intelligent Randomization in 
        Scheduling (IRIS) software which builds upon the ARMOR concept 
        and was adapted for use in the FAMS operational domain. Drawing 
        upon the principles of game theory, which analyzes behavioral 
        decisions, IRIS will systematically prevent observers from 
        recognizing patterns in FAMS security procedures--with a goal 
        of interrupting terrorist planning cycles. IRIS allows for 
        randomization of international flight coverage while limiting 
        or eliminating predictability and will place FAMs in locations 
        where they will prove most effective. IRIS was transitioned to 
        the FAMS in September 2009 and is being operationally tested on 
        a select subset of international flights. An additional 
        adaptation of the ARMOR program, called GUARDS, is being 
        piloted by TSA in the coming weeks.

CONCLUSION

    I am pleased to report that the Science and Technology Directorate 
has made significant strides during the past year in establishing our 
research priorities and enabling technological capabilities for those 
on the front lines of homeland security.
    Members of the Subcommittee, thank you for all you do in support of 
our mission. I thank you for the opportunity to meet with you today, 
and I look forward to answering your questions.

                    Biography for Bradley I. Buswell
    A native of Durango, Colorado and a graduate of the United States 
Naval Academy, Bradley Buswell is a retired submarine officer who has 
served in numerous posts at sea and in Washington, DC.
    His Washington assignments have included serving as Congressional 
Liaison for Navy Research and Development Programs in the Navy Office 
of Legislative Affairs; Assistant to the Chief of Naval Operations for 
Force Transformation; and Executive Assistant to the Chief of Naval 
Research, among other positions on the Navy staff.
    Mr. Buswell joined the private sector following his retirement from 
the U.S. Navy, working for General Electric as Manager of Government 
Relations for GE Global Research in Washington, DC.
    He joined the Department of Homeland Security's Science & 
Technology Directorate in October 2006.
    Mr. Buswell holds a Bachelors of Science in Systems Engineering 
from the U.S. Naval Academy and a Masters of Business Administration 
from The George Washington University.

    Chairman Wu. Thank you very much, Mr. Buswell. Dr. Depoy, 
please proceed.

    STATEMENT OF DR. PHIL E. DEPOY, VICE CHAIRMAN, HOMELAND 
  SECURITY SCIENCE AND TECHNOLOGY ADVISORY COMMITTEE (HSSTAC) 
                        ASSESSMENT PANEL

    Dr. Depoy. Thank you, Mr. Chairman, Mr. Smith. In 2008, 
HSSTAC, as we call the Homeland Security Science and Technology 
Advisory Committee--I don't know how that pronunciation comes 
from that acronym--but established an assessment panel in 
response to tasking from the Under Secretary, and in the 
initial tasking, the panel was asked to review the S&T 
programs, especially as related to the successful transition of 
technologies into the ultimate user communities.
    Consequently, the panel concentrated its review on the S&T 
transition projects and the newly introduced Capstone IPT 
structure for management of these efforts. The panel completed 
its review in the fall of 2008 and published its findings in a 
report to the Under Secretary. Briefly, the panel concluded 
among other things that during the previous two years, the S&T 
Directorate had done a very commendable job of providing 
structure and direction, had developed processes to define and 
collect capability gaps, and established an organization to 
enable a customer interface, that is, the Capstone IPT 
structure.
    The panel also commended the Directorate for the expansion 
of the University Centers of Excellence Program which performs 
basic research and trains students in research areas of 
interest to Homeland Security.
    Among its findings, the panel reported that although DHS 
S&T had promulgated a strategy in 2007, it was very broad and 
was not adequate for establishing priorities among the many 
projects and programs within the S&T Directorate. The Capstone 
IPT structure had made improvements but was still immature and 
untested, and at that time only one IPT, the chem bio IPT had 
actually completed the entire cycle of the process. Contact 
with first responders was very limited among the S&T projects. 
Further integration of the university Centers of Excellence 
into the overall work of S&T was inconsistent among the 
divisions, and the Directorate had only made a limited review 
of the legacy projects, that is, projects that were initiated 
before the Capstone IPT structure was adopted. They had not 
made reviews to ensure that they were still relevant and still 
had a customer.
    After the completion of the initial review, the panel was 
tasked to conduct a broader review of the Directorate's 
programs to include basic and applied research and to again 
examine the IPT process since another cycle of collection, 
prioritization and funding had occurred after the first review 
was completed. The panel has not completed its work on this 
tasking, so the remainder of my observations are not the 
observations of the panel but my own opinions based on our 
discussions with many members of the Directorate, customers 
within the operating components of DHS, and some scientists in 
other agencies who have been members of working groups 
supporting these IPTs.
    In the year between our two reviews, very significant 
progress was made in the Directorate. The Centers of Excellence 
were aligned with divisions within the Directorate and are now 
kept much better informed as to the existing projects and 
issues. And as stated, the 13th Capstone IPT was established to 
bring first responders into the system. A systems engineering 
FFRDC (Federally Funded Research and Development Centers) was 
added to the Directorate which will be a great asset in the 
determination of requirements, system design and in development 
testing and evaluation. And all the Capstone IPTs have 
completed at least one complete cycle of the process at this 
time and have made a lot of recommendations for further 
improvements.
    It is my opinion that first there is continued strong 
support for the Capstone IPT structure, both within the 
Directorate and among most of the IPT customers. However, there 
are still significant differences in processes for the 
prioritization of capability gaps among the IPTs and even among 
different working groups within each IPT. The lack of an 
adequate S&T strategy results in each working group making its 
own rules for determining the relative importance of capability 
gaps.
    Secondly, although the major advantage of the IPT structure 
is that it brings customers into the process, some of the 
customers still do not fully understand their roles in the 
prioritization of the gaps.
    And third, one of the major irritants for customers is the 
continued existence of legacy projects. These projects consume 
a significant fraction of the resources allocated to the IPTs. 
The panel was given an estimate of 30 to 40 percent of the 
total resources, and they are not part of the annual 
prioritization process. The Acting Under Secretary has recently 
tasked the panel to add a review of these legacy projects to 
its current tasking.
    And finally, it is my opinion that the Capstone IPT 
structure and processes have resulted in major improvements in 
the work of the Directorate, and further improvements will be 
made as the structure and processes are refined.
    Thank you.
    [The prepared statement of Dr. Depoy follows:]
                  Prepared Statement of Phil E. DePoy
    Good afternoon, Mr. Chairman and Members of the Subcommittee. My 
name is Phil DePoy, and I have been a member of the Homeland Security 
Science and Technology Advisory Committee (HSSTAC) since August 2007. 
In 2008, the HSSTAC established an Assessment Panel in response to 
tasking from the DHS Under Secretary for Science and Technology (S&T), 
and I was appointed as the Vice Chairman of the Panel. In the initial 
tasking, the Panel was asked to review the DHS S&T programs, especially 
as related to the successful transition of technologies into the 
ultimate user community. Consequently, the Panel concentrated its 
review on the S&T transition projects and the newly introduced Capstone 
Integrated Process Team (IPT) structure for management of these 
efforts.
    The Panel completed its review in the fall of 2008 and published 
its findings in a HSSTAC report (``Program Assessment--1'' of 1 
December 2008). Briefly, the Panel concluded that during the previous 
two years the S&T Directorate had done a commendable job of

        --  Improving morale

        --  Providing structure and direction

        --  Developing processes to define and prioritize capability 
        gaps

        --  Establishing organizations and methodologies for customer 
        interface, principally by adopting the Capstone IPT structure

        --  Expanding basic research through the establishment of 
        University Centers of Excellence (COE)

        --  Creating international outreach and

        --  Improving relationships with Congress.

    Among its findings, the Panel also reported that:

        --  Although DHS S&T had promulgated a strategy, it was very 
        broad and was not adequate for establishing priorities among 
        the many projects and programs within the S&T Directorate.

        --  The Capstone IPT structure had made improvements but was 
        still immature and untested.

        --  Contact with first responders was very uneven among the S&T 
        Divisions.

        --  DHS S&T did not have adequate systems engineering or 
        Developmental Test and Evaluation (DT&E) capabilities and had 
        no Operational Test and Evaluation (OT&E) capability.

        --  Integration of the University Centers of Excellence into 
        the overall work of S&T was inconsistent.

        --  The Directorate had made only limited reviews of legacy 
        projects (i.e., projects that were initiated before the 
        Capstone IPT structure was adopted) to ensure that they were 
        still relevant and had a customer.

    After the completion of the initial review, the Panel was tasked to 
conduct a broader review of the Directorate's projects, to include 
basic and applied research, and to again examine the IPT process since 
another cycle of collection of capability gaps, prioritization, and 
funding had occurred after the first review was completed. The Panel 
has completed about half the work on this tasking, so the remainder of 
my observations are not the observations of the Panel, but are my own 
opinions based on our discussions with many members of the S&T 
Directorate, customers within the operating components of DHS, and some 
scientists in other agencies who have been members of working groups 
supporting the IPTs.

         Prioritization Process: There is continuing strong support for 
        the Capstone IPT structure, both within the Directorate and 
        among most of the IPT customers. However, there does not appear 
        to be convergence on the standardization of processes for the 
        definition or prioritization of capability gaps among the IPTs. 
        Prioritization is obviously a very difficult process, 
        especially in those IPTs which are large and have a long list 
        of capability gaps to be considered. In most cases, this 
        process is carried out by working groups, and it is not clear 
        that some of the working group members have the experience or 
        vision to determine priorities. The lack of an overall S&T 
        strategy results in each IPT forming its own rules for 
        determining the relative importance of capability gaps. At this 
        time, there appears to have been only limited consideration 
        given to prioritization across IPTs.

         Customers' Role: Although the major advantage of the IPT 
        structure is that it brings customers into the process, many of 
        the customers do not fully understand their roles. Some 
        customers feel that they do not have any control over 
        prioritization of capability gaps and that they have to accept 
        the priorities established by the working groups. Obviously, 
        the establishment of priorities should be one of the major 
        roles of customers.

         Legacy Projects: One of the major irritants for customers, as 
        well as for many members of the S&T Directorate, is the 
        continued existence of legacy projects. These projects consume 
        a significant fraction of the resources allocated to the IPTs 
        (the Panel was given an estimate of 30 to 40 percent), and they 
        are not part of the annual prioritization process. One working 
        group participant offered the opinion that twenty percent of 
        the projects in the transition portfolio ``relate to things we 
        would like to know as opposed to things we need'' and further 
        stated that in their opinion, many of those ``are not 
        knowable.''

         Centers of Excellence: Obviously, the early strategy of the 
        Directorate was, first, to fund technologies that could be 
        transitioned rapidly into the hands of responders, and 
        secondly, to create University Centers of Excellence, not only 
        to perform basic research but also to train students in areas 
        that were important to DHS. This strategy has created a 
        `valley' between basic research and transition projects, and 
        fewer resources are being allocated to applied research than is 
        desirable in the longer-term. Although the Panel has not 
        reached a definite conclusion, it appears that some of the 
        transition projects might have benefited from more applied 
        research before the transition decision was made.

         Requirements Process: Partially due to the lack of direct 
        communication with responders, the requirements and 
        specifications for some transition projects are considered by 
        many to be inadequate. The establishment of requirements and 
        specifications is very difficult (e.g., DOD has tried many 
        techniques for the determination of requirements over many 
        decades and has never found the perfect solution), but it is so 
        critical that it deserves more study. The Panel was told that 
        the Technical Support Working Group (TSWG) has developed a 
        field panel of users to assist in the determination of 
        specifications for their programs. This approach should be 
        investigated further for possible DHS S&T application.

    Since the first review was completed in 2008, it appears that 
interaction between the Centers of Excellence and the S&T Divisions has 
improved a great deal. The Centers were aligned with the Divisions, 
i.e., each Division was given the responsibility to communicate with 
one or more of the Centers. It is important that there be good 
communications, not to over-control the work of the COEs, but to keep 
the COEs informed of areas in which new technologies are needed.
    Overall, it is my opinion that the adoption of the Capstone IPT 
structure within the S&T Directorate has been very beneficial, 
principally by bringing the customers from the operating components 
into the decision processes. Although the IPT processes are still 
immature, they are improving rapidly. In the year between the two 
HSSTAC Panel reviews, there was very noticeable improvement. A 
thirteenth Capstone IPT was established to bring first responders into 
the S&T system, a deficiency reported in the Panel's first review. A 
systems engineering FFRDC was added to the S&T Directorate, which will 
be a great asset in the determination of requirements, in the design of 
systems and systems-of-systems, and in Development Testing and 
Evaluation. The Centers of Excellence were aligned with the Divisions 
within S&T, and already the communications have improved markedly. All 
the Capstone IPTs have completed one complete cycle of the process and 
one IPT (Chem/Bio) has completed two cycles, so there have been many 
recommendations for improving the processes for the determination of 
capability gaps, prioritization of the gaps, and the improvement of 
communications among the projects, divisions, and customers.
    In response to the Chairman's specific questions:

Discuss the methods and criteria used to develop research and 
development priorities at DHS S&T and how these may be improved. How 
should comprehensive threat assessments help set research and 
development priorities and does DHS S&T utilize this resource? Does DHS 
S&T coordinate its research and development strategic plan with other 
federal research entities and private industry?

    We have not completed our review, and I can provide only partial 
responses to these questions. It appears that each IPT uses a somewhat 
different process to develop priorities. For the most part, the 
priorities are established by working groups with participation by 
members from S&T, the operating components of DHS, and other agencies. 
As the Capstone IPT process matures, I expect that the process will be 
more standardized among divisions. Certainly, the development of an 
overall S&T strategy would be a major improvement to this process.
    I cannot respond to the question of whether all the Capstone IPTs 
utilize comprehensive threat assessments in establishing priorities. 
Threat assessment should obviously play a role in setting priorities, 
but since the Panel has not yet met with the working groups, we do not 
know how each working group assigns priorities to the individual 
capability gaps. In some of the S&T Divisions, we have seen excellent 
coordination with other agencies. The Chem/Bio Division, for example, 
holds an annual three-day meeting in which they review all their 
projects with stakeholders from many agencies.

Are the IPTs fulfilling their intended role as vehicles for stakeholder 
input in research priorities? If not, what are the barriers keeping the 
IPTs from operating at their full potential?

    I do not believe that the stakeholders have yet achieved their 
intended role, but based on the progress within the past year, I 
believe that they will be able to acquire this role in the near future. 
I believe the major barriers are the lack of a strategy and the 
continued existence of legacy projects, which consume a significant 
part of the resources. If an S&T strategy is developed, I would hope 
that the stakeholders play a major role in its evolution.

What role does basic research currently play in the DHS S&T portfolio? 
What is the role of the Centers of Excellence in performing this 
research? Ideally, how should basic research and the Centers of 
Excellence be integrated into the research portfolio and strategic 
plan?

    It is gratifying to see that basic research is a significant part 
of the DHS S&T portfolio. As you are aware, there must be a delicate 
balance between basic research and research involved with the 
transition of programs. On one hand, it is easy to absorb the basic 
research resources into the later development processes. On the other 
hand, the basic researchers need to know the areas in which new 
technologies are needed. On our first review, the Panel felt that the 
Centers of Excellence were too isolated from the Divisions. With the 
recent changes, it appears that the Centers are receiving more 
information from the Divisions, but it is probably too early to 
determine if they are in a reasonable balance.

                      Biography for Phil E. DePoy
    Dr. Phil E. DePoy retired from the Naval Postgraduate School in 
2005, where he served as the founding director of the Meyer Institute 
of Systems Engineering. From 1992 to 2000, Dr. DePoy was the President 
and CEO of the National Opinion Research Center at the University of 
Chicago. From 1959 to 1992, he was employed by the Center for Naval 
Analyses (CNA) and its predecessor organization, the M.I.T. Operations 
Evaluation Group. He held many positions at CNA including President and 
CEO from 1984 to 1990.
    Dr. DePoy holds a BS degree in Chemical Engineering from Purdue 
University, an MS degree in Nuclear Engineering from M.I.T., and a 
Ph.D. in Chemical Engineering from Stanford University. He presently 
serves on the CNA Board and is Chairman of the Board of Wolf Park (a 
research and education organization) and a member of the Advisory Board 
of the Applied Physics Laboratory (University of Washington) and the 
Council on Foreign Relations.

    Chairman Wu. Thank you very much, Dr. Depoy. Mr. Berteau, 
please proceed.

STATEMENT OF MR. DAVID J. BERTEAU, SENIOR ADVISOR AND DIRECTOR, 
   DEFENSE-INDUSTRIAL INITIATIVES, CENTER FOR STRATEGIC AND 
             INTERNATIONAL STUDIES, WASHINGTON, DC

    Mr. Berteau. Thank you, Mr. Chairman, and Congressman 
Smith. It is a great privilege to be here today, and I echo Mr. 
Buswell's comments. I feel honored to be in the company of the 
panel that I am sitting with here, so I am extremely grateful 
to you.
    I note that my statement today and my responses to any 
questions you may have are my own views and do not necessarily 
reflect the views of the institution for which I work. I would 
also note that I am not sure that they don't reflect those 
views, either, but that is neither here nor there.
    This committee, of course, as has been noted, played a key 
role from the beginning in S&T, and I note in my statement the 
dichotomy that apparently exists inside the enabling statute to 
this day, that on the one hand, the S&T Directorate is 
responsible for R&D that supports any and all elements of the 
Department, and on the other hand, they are to have a focus 
both from a strategic planning point of view and a 
prioritization point of view on chemical, biological, 
radiological and nuclear, ``CBRN'' elements. I say that not 
because I think there is actually confusion in the Department 
in this regard. I don't actually think there is. What I think 
that shows is it reflects still a very strong emphasis on the 
terrorist threat as the driver behind R&D when, in fact, a 
legitimate assessment of all threats and risk would say that 
there are risks that are much broader than, and in some cases 
overlap significantly with, what we would define as terrorist 
threats. And I think I come from a background that says an all-
hazards, an all-risks, an all-threats assessment process is 
inherently important to any strategic plan, not just simply 
that which is defined in the statute.
    We know from the history of management that strategic plans 
do set agendas for agencies but only if they are actually 
incorporated into the budget. Resources drive policy way more 
than policy drives resources, and as a result of that, I think 
it is important to pay attention not only to the plan but to 
look at the execution of that plan as it is reflected in the 
budget and in the implementation of that budget.
    There is one problem that I would note that is a little bit 
of an example in that regard of the difficulty of integrating 
across the Department. Since the creation of the Domestic 
Nuclear Detection Office (DNDO), there is a little bit of a 
potential dichotomy with responsibility for S&T funding in the 
Department with radiological and nuclear being dictated more by 
DNDO than by S&T, and that I think makes it harder to have an 
integrated S&T plan. I believe actually DHS itself can fix this 
problem, but it is something that I would note that may be 
worthy of the Committee's attention down the road.
    I have three comments on your three questions, first from a 
strategic planning perspective. It is really critical that a 
strategic plan be connected to the larger homeland security 
enterprise. It is impossible for an S&T strategic plan by 
itself to have the validity necessary to say that we are 
spending our money on the most important priorities. I think it 
has to flow from a broader homeland security enterprise-wide 
strategic plan linked in turn to a DHS-level strategic plan 
because there is so much of Homeland Security that is outside 
DHS or even outside the Federal Government.
    But there are two other elements that have to come into 
play. One is those plans have to be assessed against current 
capability in order to identify capability gaps and capability 
shortfalls and be able to prioritize what you need to do to 
fill those gaps. And then in turn, the budgets have to be built 
reflecting some kind of a judgment of where the risks are and 
where the benefits are of filling those gaps or addressing 
those gaps in the budget. This is not only prudent management, 
it is essential for risk reduction and threat reduction. And I 
think this committee can encourage DHS toward that broader 
planning process tied to capability assessments.
    With regard to the IPTs, I certainly echo what my colleague 
to the right has said. They are playing a very useful role. 
They are not a substitute for a formal prioritization and 
strategic planning process, however. I think they augment it 
rather than replace it.
    With respect to basic research, I think there are two 
important questions. One is how much is done, but the second is 
how do you manage that so it eventually leads to useful 
homeland security applications that tie to threats, that tie to 
risks and that tie to first responder needs? My own view is 
that it needs to be linked to solving some kind of a capability 
gap that has been identified or some kind of a strategic 
shortfall. And so far, that is difficult in part because the 
DHS process for determining requirements is fragmented and in 
some cases nonexistent with most DHS components unable to 
execute a rigorous requirements process.
    And then finally, I think it is important to focus on the 
transition from research into programs or into outcomes and 
results, whether that be incorporation and production of 
hardware or systems that are fielded or the provision of 
standards or intellectual property or even technical assistance 
that makes people smarter buyers, whether in DHS or in the 
broader community. And I think that kind of planning for 
transition needs to occur up front.
    The process that I lay out here, of course, is not easy. It 
is hard to develop broad plans. It is hard to have a structured 
planning process. It is hard to do the capability assessments. 
It is hard to show how they reflect in the budget, but I think 
it is important for you to lay that out as what your desired 
outcome is and try to get that from the government.
    With that, sir, I will conclude my remarks and will stand 
ready for your questions.
    [The prepared statement of Mr. Berteau follows:]
                 Prepared Statement of David J. Berteau
    Mr. Chairman, Congressman Smith, and Members of the Committee, 
thank you for the opportunity to appear before you today in the company 
of my distinguished fellow panel members. My statement addresses the 
overall question of establishing research priorities in the Science and 
Technology Directorate (S&T) of the U.S. Department of Homeland 
Security (DHS). It also responds to each of your three specific 
questions, as noted in the invitation letter.

My Background

    It may be useful for the Committee to know a bit about my 
background in order to gauge the value of the comments I make today. As 
shown on the attached biographical statement, most of my career in 
national security and homeland security issues has been here in 
Washington. However, in my younger days, I was also a firefighter and 
an emergency medical technician volunteer, and I still maintain ties to 
those communities, so I try to apply the first responder perspective as 
well as the Washington perspective to these questions.

Overall Role of S&T

    It is also useful to review the legislative history of the creation 
of the Science & Technology Directorate. As I recall, this committee 
played a key role in ensuring that the role of Science and Technology 
was properly incorporated into the final Homeland Security Act of 2002. 
Initial legislative proposals included a narrow focus on research and 
development, tied most closely to requirements in the areas of 
chemical, biological, radiological, and nuclear, or CBRN. This 
committee appropriately supported a broader definition of homeland 
security R&D, and ultimately the Act (Section 302 (4) ) stated that the 
Under Secretary for Science and Technology would be responsible for 
``conducting basic and applied research, development, demonstration, 
testing, and evaluation activities that are relevant to any or all 
elements of the Department'' (emphasis added).
    However, with respect to the establishment of priorities both 
within DHS and for the Nation, the enabling legislation was more 
specific. It states in Section 302 (2) and again in Section 302 (5) 
that the Under Secretary shall be responsible for ``developing, in 
consultation with other appropriate executive agencies, a national 
policy and strategic plan for, identifying priorities, goals, 
objectives and policies for, and coordinating the Federal Government's 
civilian efforts to identify and develop countermeasures to chemical, 
biological, radiological, nuclear, and other emerging terrorist threats 
(emphasis added), including the development of comprehensive, research-
based definable goals for such efforts and development of annual 
measurable objectives and specific targets to accomplish and evaluate 
the goals of such efforts.''
    Thus, the originating Act for DHS set up two parallel 
responsibilities for S&T. The first was to conduct R&D for all elements 
of the Department. The second was to support a national strategy that 
focused on terrorist threats, primarily in the areas of CBRN. In 
addition, the legislation includes a requirement for ``annual 
measurable objectives,'' but that requirement focuses on CBRN. These 
parallel responsibilities, in my opinion, set up a competition for 
emphasis in the DHS S&T program. That competition is at the heart of 
today's hearing questions.

Strategic Planning in the Homeland Security Enterprise, DHS, and S&T

    The critical question for the S&T budget in DHS is the matter of 
the priorities that are used to develop and execute that budget. As 
noted above, the Homeland Security Act of 2002 requires the S&T 
Directorate to develop a plan for prioritizing S&T research on CBRN. 
Such a plan requires a clear link to DHS S&T budgets and spending. 
There have been a number of plans developed and released in accordance 
with this requirement, most recently in 2007 and 2008. In keeping with 
the S&T responsibilities for ``all elements of the Department,'' the 
plans to date have been broader than CBRN, and I believe that is 
appropriate and necessary. Such plans are worthwhile for guiding 
funding and justifying budgets.
    However, from a strategic planning perspective, this process to 
date has been insufficient and inadequate. The ongoing Quadrennial 
Homeland Security Review, mandated by Congress, includes the charge to 
examine the homeland security strategic planning process. In fact, the 
DHS web site refers specifically to QHSR studies on Strategic 
Management and on Planning and Capabilities, and the questions 
submitted for the ``National Dialogue'' related to those studies can be 
found in links at http://www.dhs.gov/xabout/
gc<INF>-</INF>1208534155450.shtm#0. I cannot speculate on the results 
of the QHSR, but I would like to share with the Committee some of my 
personal observations about strategic planning and its relationship to 
the DHS S&T budget.
    First, strategic planning needs to be the result of a rigorous 
planning process. This process would incorporate risk and threat 
assessment, the Administration's priorities, legislation, existing 
strategies, and involvement of stakeholders into strategic guidance. 
Such guidance needs to encompass more than DHS--it needs to span the 
homeland security enterprise, beyond DHS to include the rest of the 
Federal Government as well as State and local levels, including first 
responders.
    Second, strategic plans need to be assessed against existing 
capabilities to determine where there are gaps in capabilities and how 
those gaps can be addressed. In some cases, capability gaps can be met 
by changes in procedures or training or policy. In other cases, 
resources will need to be allocated to fill capability gaps. In still 
other cases, new technology or new applications of existing technology 
will fix those gaps.
    Third, budgets need to address capability gaps or shortfalls. Some 
of this could be in the DHS budget, some elsewhere in the federal 
budget, and some in State and local budgets.
    Ultimately, the S&T strategic planning process should have the 
following attributes:

        --  it needs to flow from a broader Homeland Security 
        Enterprise-wide Strategic Plan, linked in turn to a DHS-level 
        Strategic Plan

        --  plans at each level (enterprise, DHS, and S&T) need to be 
        assessed against current and projected capabilities, with the 
        resulting identification of capability gaps and shortfalls

        --  those capability gaps and shortfalls need to be linked to 
        the budget and to risk assessments of the consequences of 
        failing to address the shortfalls.

    Such an S&T strategic plan would have significantly more value to 
DHS and homeland security than today's process. A broad strategic 
planning process and capability assessment will illuminate real 
priorities that reduce risk to America and produce more robust 
responses to catastrophic threats and events. It is important to 
recognize, though, that S&T cannot create these attributes; that can 
only be done at the DHS level.

IPTs and First Responders

    The use of Integrated Process Teams or IPTs in the Federal 
Government has grown substantially in the past two decades. Such teams 
provide a mechanism for providing input to and assessing the status of 
government actions across an array of organizations and institutions. 
In the S&T process, they provide useful input, but they are not a 
substitute for the results of prioritization that the strategic 
planning and capability assessment process described above. In 
addition, IPTs can create a false sense of a rigorous process when in 
reality there is only rigorous involvement.

Basic Research

    As the Members of this committee know well, the role of research in 
DHS was debated long and hard at the time the Act was passed in 2002. A 
review of the legislative history shows diverse views over the types of 
research appropriate for DHS and who should conduct them. While the 
legislation settled some of this debate, there are still two important 
questions that need further resolution.
    One is the issue of how much basic research should be done by DHS. 
The second is how to manage that research so that it eventually leads 
to useful homeland security applications. My own view is that the 
answers to these two questions need to tie back to the original point 
of a broader strategic plan and capability assessment process. If 
research cannot be linked to solving some strategic shortfall or 
capability gap, then we need to keep working before we assign it a high 
priority. Basic research sponsored by other Federal Government agencies 
can be the feeding ground for DHS S&T programs, but basic research in 
DHS should, in my judgment, be tied to identified requirements and 
shortfalls and not be driven by any quota or budget target.

Transition from Research to Programs

    One additional question warrants this committee's attention, in my 
view. The first responder community cares about research to the extent 
that it produces results that help them do their jobs or prepare for 
contingencies. This means that DHS S&T needs to pay close attention to 
the transition from research into programs that will produce results. 
In some cases, this would mean the production of hardware or systems 
incorporating research results. In other cases, it might be the 
provision of standards or intellectual property to a broad array of 
vendors or suppliers. In still other cases, it might produce assistance 
to internal DHS components or first responders at the State or local 
level.
    Across the board in S&T research, therefore, there needs to be 
planning for transition as part of the initial prioritization process. 
That planning has to include funding in the budget. This planning is 
easier for some activities than for others, particularly when the 
ultimate customer or user of the research is inside DHS. It's harder 
when the end-user is outside DHS or even the Federal Government. 
Decades of experience at DARPA in DOD shows, however, that research 
dollars have more value and produce better results when consideration 
is given up front to plans for transitioning research into real, funded 
programs. This is a feature of the S&T strategic planning process that 
other homeland security strategic plans will not have, and it makes the 
S&T planning and budgeting challenge more complex, but it has high 
payoff for return on investment.

Closing

    Chairman Wu, Congressman Smith, I would like to conclude by noting 
that the process I have advocated here is not easy. It is hard to 
develop broad strategic plans, hard to conduct such a planning process, 
and hard to do the capability assessments that lead to priorities in 
the budget. Failure to undertake an enterprise-wide strategic planning 
process will, however, ensure that we don't spend our scarce budget 
dollars where they will do the most good. I recommend that this 
committee endorse the creation and support for a broad strategic plan 
across the Homeland Security Enterprise and the clear linkage of S&T 
strategic plans to that larger enterprise-level work.
    Sir, this concludes my remarks, and I stand ready for your 
questions.

                     Biography for David J. Berteau
    David J. Berteau is Senior Adviser and Director, Defense-Industrial 
Initiatives, at the Center for Strategic and International Studies in 
Washington, DC, where he is a resident scholar on acquisition, 
industrial base, programs, budget, and management for national security 
and homeland security. Recent and ongoing studies include projects on 
interagency resource management, federal services contracts, defense 
acquisition reform, transatlantic defense trade, and complex program 
management.
    Mr. Berteau is a Fellow of the National Academy of Public 
Administration and chaired their panel on Joint Land Use Studies for 
the Defense Department. He is a member of the Defense Acquisition 
University Board of Visitors, a Director of the Procurement Round 
Table, and an Adjunct Professor at Georgetown University. He chaired 
the National Research Council's 2005 study of printed circuit boards 
for national security. Mr. Berteau served on the Secretary of the 
Army's Commission on Army Acquisition and Program Management in 
Expeditionary Operations and on two recent Defense Science Board task 
forces, on the defense industrial structure and on integrating 
commercial systems into defense.
    Prior to coming to CSIS, he was Director of National Defense and 
Homeland Security for Clark & Weinstock, where he still consults. He 
was the Director of Syracuse University's National Security Studies 
Program and served as a Professor of Practice at the Maxwell School of 
Citizenship and Public Affairs. Mr. Berteau was a Senior Vice President 
for Science Applications International Corporation (SAIC) until early 
2001.
    Mr. Berteau served in the Defense Department for 12 years under 
four Defense Secretaries, including four years as Principal Deputy 
Assistant Secretary of Defense for Production and Logistics. He was 
responsible for weapons production readiness, the defense industrial 
base, military base closures, defense logistics, installations and 
military construction, defense procurement, and environmental matters. 
He testified before Congress more than 100 times, led numerous defense 
management reform initiatives, oversaw the Defense Logistics Agency, 
and was instrumental in creating two new agencies, the Defense Contract 
Management Agency and the Defense Commissary Agency. He twice was 
acting Assistant Secretary of Defense for nearly a year, in 1990 and 
1993. As Chairman of the 1992 government-wide Defense Conversion 
Commission, Mr. Berteau's report to the Secretary of Defense, Adjusting 
to the Drawdown, developed ways to address the impact of defense 
reductions on the U.S. economy, on military and civilian defense 
personnel, and on communities. Nearly all of the commission's 
recommendations were implemented.
    In the late 1980s, Mr. Berteau was the Deputy Assistant Secretary 
of Defense for Resource Management & Support, responsible for all 
defense military and civilian manpower and personnel requirements. He 
chaired the Federal Economic Adjustment Committee. He was acting 
Assistant Secretary of Defense for Force Management and Personnel for 
eight months in 1989.
    Mr. Berteau was the Packard Commission's Executive Secretary in 
1985-86 (President's Blue Ribbon Commission on Defense Management). 
Earlier, he was Assistant to the Deputy Secretary of Defense, Executive 
Secretary of the DOD Council on Integrity and Management Improvement 
and the Defense Resources Board, and Special Assistant to the DOD 
Comptroller. He entered DOD in 1981 as a Presidential Management 
Intern.
    Mr. Berteau graduated from Tulane University in 1971 and received 
his Master's degree in 1981 from the LBJ School of Public Affairs at 
the University of Texas. Mr. Berteau received the Secretary of the Army 
Exceptional Public Service Medal in 2007 and the Secretary of Defense 
Medals for Distinguished Public Service in 1991 and Outstanding Public 
Service in 1987 and 1989. A native of Louisiana, he lives in Derwood, 
Maryland, with his wife, Jane Berteau; they have two grown children.

    Chairman Wu. Thank you very much, Mr. Berteau. Dr. 
Williams, please proceed.

   STATEMENT OF DR. CINDY WILLIAMS, CHAIR, PANEL ON THE DHS 
SCIENCE AND TECHNOLOGY DIRECTORATE, NATIONAL ACADEMY OF PUBLIC 
  ADMINISTRATION; SHAPIRO VISITING PROFESSOR OF INTERNATIONAL 
 AFFAIRS, THE ELLIOTT SCHOOL OF INTERNATIONAL AFFAIRS, GEORGE 
 WASHINGTON UNIVERSITY; PRINCIPAL RESEARCH SCIENTIST, SECURITY 
     STUDIES PROGRAM, MASSACHUSETTS INSTITUTE OF TECHNOLOGY

    Dr. Williams. Thank you, Mr. Chairman, Congressman Smith. 
It is a real pleasure to appear before you today to discuss the 
research priorities in the S&T Directorate of the Department of 
Homeland Security.
    Between June 2008 and June 2009 I chaired a panel of the 
National Academy of Public Administration, or NAPA, that 
conducted a study of the S&T Directorate. I am joined today by 
Rick Cinquegrana and Laurie Ekstrand, who led the work of 
NAPA's staff on the study. Some copies of the panel's report 
have been provided to your staff, and the report is also 
available online.
    The Academy panel offered findings and recommendations in 
several areas. My remarks today focus on three of them: 
strategic plans, the establishment of research priorities in 
the Directorate's transition portfolio and the Directorate's 
role in basic research.
    Let me start with strategic plans. The S&T Directorate is 
responsible for two distinct strategic plans: an internal plan 
to guide its own work and a federal-wide plan for civilian 
efforts to counter chemical, biological and other emerging 
terrorist threats. The Directorate published an internal 
strategic plan, as Mr. Buswell mentioned, in June 2002. That 
plan describes the Directorate's structure, the roles of its 
integrated product teams, or IPTs, its mechanisms for reaching 
out to other organizations, and its plans for workforce 
development. But it does not meet the criteria of the strategic 
plan as the term is generally applied today across Federal 
Government.
    Among other things, the plan's mission statement 
understates the Directorate's range of responsibility, the plan 
itself lacks a statement of long-term goals, and it does not 
discuss key external factors that could affect progress.
    We also found process weaknesses with regard to strategic 
planning, including a lack of involvement by key external 
stakeholders and the lack of a systematic scan of the 
environment. The panel recommended that S&T follow a strategic 
planning process outlined by the Government Accountability 
Office and OMB to develop a plan that can guide its work toward 
a set of specified goals.
    We found that the Directorate has not made progress on the 
strategic plan for the wider federal effort at all. To be fair, 
among federal departments, DHS has only the third-largest 
budget for homeland security research and development, after 
the Department of Health and Human Services and the Department 
of Defense. To produce a federal research strategy with any 
teeth, S&T would need White House support. We recommended that 
S&T work with the White House Office of Science and Technology 
Policy and other federal departments to develop that broader 
plan.
    Let me turn now to the establishment of priorities in the 
transition portfolio. S&T's IPTs bring the Directorate's staff 
together with customers to establish priorities for projects. 
The IPTs appear to be useful vehicles for involving DHS's 
internal stakeholders in setting research priorities and for 
stimulating information exchange across the Department. 
Nevertheless, we identified several problems. As an example, it 
appears that when the IPTs were formed, little guidance was 
provided on how to operate them. Each IPT devised its own 
structure and processes through trial and error. Earlier this 
year, S&T was beginning to develop some standardized practices, 
but we still found substantial variation in structure, 
processes, customer satisfaction and accomplishments among the 
IPTs.
    And finally, let me turn to S&T's role in basic research. 
Basic research is the seed corn for the development of future 
technologies, and no other organization in Federal Government 
has the mandate or the wherewithal to sponsor basic research in 
key areas related to homeland security such as border 
protection, immigration, and aviation security. That said, our 
panel found several potential weaknesses in this area. I will 
highlight just one, that is, many of the Directorate's basic 
research projects are awarded without competition and without 
external scientific peer review. Other federal research 
organizations routinely use competitive processes, including 
external peer review to good effect. Our panel recommended that 
DHS S&T follow suit.
    Mr. Chairman, that concludes my prepared remarks, and I 
look forward to any questions.
    [The prepared statement of Dr. Williams follows:]
                  Prepared Statement of Cindy Williams
    Mr. Chairman, Congressman Smith, and Members of the Subcommittee, 
thank you for the opportunity to appear before you today to discuss the 
development of strategic plans and research priorities and the role of 
basic research in the Department of Homeland Security (DHS). Advances 
in science and technology and the deliberate transition of those 
advances into usable systems are crucial to the Nation's efforts to 
prevent and disrupt future terrorist attacks, protect people and 
critical infrastructure in the event of an attack or a naturally 
occurring disaster, and prepare to respond and recover should such 
events occur. The Directorate of Science and Technology (S&T) is 
charged with implementing the science and technology effort for much of 
DHS as well as orchestrating the planning for key S&T activities across 
the many federal departments and agencies involved in homeland 
security.
    Under mandate from the DHS Appropriations Act for fiscal year (FY) 
2008, the National Academy of Public Administration (NAPA) conducted a 
study of DHS S&T between June 2008 and June 2009.\1\ I served as Chair 
of the expert panel that guided the study. I am joined today by Rick 
Cinquegrana and Laurie Ekstrand, the Program Area Director and Project 
Director who led the work of NAPA's staff on the study.
---------------------------------------------------------------------------
    \1\ The Department of Homeland Security Appropriations Act, 2008, 
is Division E of the Consolidated Appropriations Act, FY 2008 (P.L. 
110-161). The report of the Committee on Appropriations of the U.S. 
House of Representatives (H.R. 110-181) accompanying the House version 
of the Act directed DHS to contract with NAPA to conduct the study.
---------------------------------------------------------------------------
    The panel's report, Department of Homeland Security Science and 
Technology Directorate: Developing Technology to Protect America, was 
published by NAPA in June 2009. Some copies of the report have been 
made available to your staff. The report is also available on-line at 
http://www.napawash.org/pc<INF>-</INF>management<INF>-</INF>studies/
DHS<INF>-</INF>ST/
DHS<INF>-</INF>ST<INF>-</INF>Directorate<INF>-</INF>June<INF>-</INF>2009
.pdf.
    In addition to serving as chair of the NAPA panel, I am a member of 
the research staff of the Security Studies Program at the Massachusetts 
Institute of Technology (MIT) and, for the current academic semester, 
the J.B. and Maurice C. Shapiro Visiting Professor of International 
Affairs at the Elliott School of the George Washington University. At 
MIT, I have conducted independent research over a four-year period on 
the state of strategic planning and resource allocation for homeland 
security within the DHS and other federal departments, in the Executive 
Office of the President, and in the Congress. Today I will discuss 
findings and recommendations of the NAPA study in my capacity as Chair 
of the Academy Panel. My views are also informed by my experience in 
the context of my own research.

Findings and Recommendations of the NAPA Panel

    The NAPA panel offered findings and recommendations in eight areas:

        <bullet>  The organization of and communications within DHS 
        S&T;

        <bullet>  The customer focus of S&T's transition portfolio;\2\
---------------------------------------------------------------------------
    \2\ S&T has grouped its projects into three portfolios: transition, 
research, and innovation. The transition portfolio is meant to deliver 
technologies to DHS components or first responders within three years; 
it makes up about one-half of the organization's budget. The research 
portfolio, aimed at basic research, accounts for roughly 20 percent of 
S&T's budget. The innovation portfolio is meant to identify and fund 
potential ``game changing'' technologies--long shots that could lead to 
``leap-ahead results.'' Innovation constitutes roughly five percent of 
S&T's budget.

        <bullet>  The allocation of funds and selection of research 
---------------------------------------------------------------------------
        projects across S&T's basic research portfolio;

        <bullet>  S&T's exercise of its statutory role in guiding 
        federal-wide science and technology efforts in homeland 
        security;

        <bullet>  S&T's internal strategic planning effort;

        <bullet>  The practice of performance measurement in S&T;

        <bullet>  The question of unnecessary duplication in the 
        activities of the federal departments and agencies engaged in 
        homeland security-related science and technology; and

        <bullet>  The question of opportunity costs: whether increases 
        in homeland security-related research during this decade have 
        resulted in reduced funding for other significant science and 
        technology endeavors.

    Before turning to the specific questions posed by the Subcommittee 
for this hearing, let me summarize briefly the panel's findings and 
recommendations in each of these areas.

Organization and communications. The panel found that DHS S&T is better 
organized than it was during its early years, but that today's matrix 
organization and the large number of direct reports to the Under 
Secretary for S&T pose communications challenges across the management 
team and between management and staff. We recommended that S&T 
management engage staff in a process of identifying communications 
problems and implementing solutions. We also suggested that web-based 
technology would be a valuable tool to initiate that process. We also 
recommended that S&T's leadership reconsider the structure of the 
Directorate to ensure a reasonable number of direct reports and a 
cohesive structure for managing first responder interaction.

Customer focus of the transition portfolio. We found that through the 
Integrated Product Team (IPT) approach that S&T now uses for the 
transition portfolio, the Directorate has made strides in engaging its 
customers within DHS. Progress is uneven across the various IPTs, 
however. We also found that first responders at the State and local 
levels often feel left out, but that the addition of a new first 
responder IPT is unlikely to prove an effective solution. We 
recommended that S&T refine and institutionalize the structures and 
procedures across the IPTs and that including first responders into 
existing IPTs as appropriate is likely to be more effective than adding 
the new first responder IPT.

Allocation of funds and selection of research projects. The broad 
allocation of funds across the basic research portfolio appears to rest 
on the budget shares that were extant among DHS's legacy components 
before they were brought into the consolidated department in 2003, and 
many basic research projects are awarded without competition or peer 
review. We recommended that S&T take steps to rationalize decision-
making about the broad allocation of basic research funds, and that 
funds be awarded on a competitive basis based on scientific peer review 
except in cases when that is clearly not feasible.

Guiding federal-wide science and technology efforts. Although S&T is 
charged by statute to take a leadership role in guiding federal efforts 
in homeland security-related research, other federal organizations 
enjoy wider roles in and have larger budgets for homeland security 
research than does DHS S&T. Thus S&T is in a relatively weak position 
to carry out its leadership role. S&T officials are active participants 
in many interagency task forces and committees, and they coordinate 
with other agencies on numerous projects. Nevertheless, in the nearly 
seven years since DHS was created, S&T has not been successful in 
guiding the development of a federal strategic plan for homeland 
security S&T. The panel recommended that S&T work with the White House 
Office of Science and Technology Policy and the array of federal 
agencies engaged in homeland security-related research to develop a 
comprehensive national strategic plan for such research.

S&T's internal strategic planning. The NAPA panel found that the 
strategic plan that S&T issued in June 2007 is a useful document in 
describing the ``what'' of S&T's programs, but it fails to describe the 
``why.'' We recommended that S&T follow the guidance provided by the 
Office of Management and Budget (OMB) and the Government Accountability 
Office (GAO) to formulate a strategic plan that will effectively guide 
its work toward specified goals.\3\
---------------------------------------------------------------------------
    \3\ OMB Circular No. A-11, Part 2; GAO, Executive Guide: 
Effectively Implementing the Government Performance and Results Act 
(GAO/GGD-96-119, June 1996).

Performance measurement. S&T uses milestones to measure progress, but 
those milestones may not be meaningful indicators of progress. There 
also appears to be little or no consequence for missing milestones. The 
panel recommended that S&T systematically collect and analyze 
information about milestones met and missed, adopt appropriate 
consequences, and provide clear guidance for setting valid initial and 
subsequent milestones. We also recommended that S&T adopt peer review 
of their overall portfolio, as is the practice of other federal science 
---------------------------------------------------------------------------
and technology organizations.

Unnecessary duplication. The panel found no instances of unnecessary 
duplication within S&T or among the other agencies engaged in homeland 
security research. Nevertheless, the panel was concerned that the 
weaknesses in strategic planning and the lack of systematic mechanisms 
to evaluate the relative merits of competing priorities for science and 
technology efforts related to homeland security put the community at 
risk for such duplication.

Opportunity costs. The panel surfaced no evidence to indicate that the 
increases in spending for homeland security-related research has led to 
reduced funding for other significant research areas.

    The remainder of my statement addresses in more detail the issues 
related to the development of strategic plans, stakeholder involvement 
in setting research priorities, and the role of basic research in the 
DHS S&T portfolio.

The Development of Strategic Plans

    Like other federal organizations, DHS S&T bears a responsibility 
for developing a strategic plan to guide its own work. In addition, the 
Homeland Security Act of 2002 requires the Directorate to develop, ``in 
consultation with other appropriate executive agencies, a national 
policy and strategic plan'' for federal civilian efforts to identify 
and develop countermeasures to chemical, biological, radiological, 
nuclear, and other emerging terrorist threats.\4\
---------------------------------------------------------------------------
    \4\ P.L. 107-296, November 25, 2002, Title III Sec. 302.

S&T internal strategic planning
    In June 2007, the Directorate published an internal Strategic Plan, 
Science & Technology Strategy to Make the Nation Safer. The plan 
describes the structure of the organization and the roles of the IPTs, 
its mechanisms for reaching out to other organizations and players, and 
its plans for workforce development. It does not adhere to the criteria 
of a strategic plan as generally applied across the Federal Government. 
Simply put, the plan can be said to detail the ``what'' of S&T, but it 
lacks the focus on the ``why'' that is the hallmark of successful 
strategic planning. The NAPA panel also found weaknesses in the process 
through which the plan was developed.
    GAO's guide to strategic planning recommends that strategic plans 
include six components.\5\ The table on the next page assesses the 
content of S&T's strategic plan in the context of GAO's required 
components. The table reveals several weaknesses of the June 2007 
document: a mission statement that understates the range of 
responsibilities assigned to the organization, including those related 
to coordinating and collaborating with other federal agencies; the lack 
of specific long-term goals and objectives; the lack of discussion of 
key external factors that could affect the achievement of goals; and 
the lack of a foundation to establish annual performance goals and 
metrics to assess progress toward goals.
---------------------------------------------------------------------------
    \5\ GAO, Executive Guide: Effectively Implementing the Government 
Performance and Results Act (GAO/GGD-96-119, June 1996.
---------------------------------------------------------------------------
    One challenge confronting DHS S&T is that DHS itself and the wider 
federal homeland security community are generally lacking the clear 
assessments of threats, vulnerabilities, and risks and the prioritized 
goals from which S&T might derive its own statement of goals and 
objectives. Better assessments of threats, risks, and vulnerabilities 
and a clearer consensus on homeland security goals, objectives, and 
priorities at the national, federal, and departmental levels would 
indeed provide a foundation on which S&T could build its next strategic 
plan. Nevertheless, the NAPA panel felt that the DHS Strategic Plan 
released in September 2008 offers the department-level perspective that 
can guide the Directorate's planning efforts. We recommended that S&T 
move forward to develop a strategic plan that more closely reflects the 
GAO guidance.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In strategic planning, the process is often as important as the 
product. The GAO guide highlights three practices that are critical to 
successful strategic planning:

        <bullet>  Stakeholder involvement, including Congress and the 
        Administration, State and local governments, third-party 
        providers, interest groups, agency employees, fee-paying 
        customers, and the public;

        <bullet>  Assessment of the internal and external environment 
        continuously and systematically to anticipate future challenges 
        and make future adjustments so that potential problems do not 
        become crises; and

        <bullet>  Alignment of activities, core processes, and 
        resources to support mission-related outcomes.

    Stakeholders were not specifically involved in drafting the S&T 
strategic plan. In addition, a systematic environmental scan was not 
conducted to inform the plan. The NAPA panel recommended that S&T 
follow the process as outlined by GAO, and particularly that it involve 
stakeholders in the development of its next plan. Other federal science 
and technology organizations have engaged in sound strategic planning, 
and their practices provide models that could inform an improved 
process in DHS S&T.

Development of a federal strategic plan
    DHS S&T has not made progress in developing a strategic plan for 
the overall federal civilian effort to identify and develop 
countermeasures to emerging terrorist threats. To be fair, S&T may not 
be in the best position to lead that development, because it is a 
relatively small player within the federal homeland security research 
community.
    Even within DHS, the S&T Directorate is not the only player in S&T. 
When the Department was formed, the Coast Guard and Secret Service both 
retained jurisdiction over their own science and technology work. The 
Department's Domestic Nuclear Detection Office (DNDO) now holds 
separate responsibility for research and development related to nuclear 
detection.
    Moreover, among federal departments, DHS has only the third-largest 
budget for homeland security-related research and development, after 
the Department of Health and Human Services (HHS) and the Department of 
Defense (DOD).\6\ The National Science Foundation, NASA, Department of 
Energy, Department of Commerce, Environmental Protection Agency, and 
Department of Agriculture also play significant roles.
---------------------------------------------------------------------------
    \6\ FY 2008 funding for homeland security-related research and 
development in HHS was $1.9 billion; in DOD, $1.3 billion; in DHS, 
including R&D funds for the DNDO, $1.0 billion.
---------------------------------------------------------------------------
    DHS S&T has little direct authority to direct or influence the 
research agendas of the science and technology organizations in those 
other departments and agencies. To produce a comprehensive research 
strategy that would be supported across the Federal Government, S&T 
would have to seek and rely on White House support to obtain active 
participation from the other federal research organizations, some of 
which are far stronger players by virtue of their own budgets as well 
as the institutional heft of their respective departments and agencies. 
I believe that it makes more sense for the White House Executive Office 
of the President to orchestrate this interagency effort.
    Within the Executive Office of the President, there are two 
organizations that could take charge of an overall federal strategic 
plan for homeland security-related science and technology. One is the 
newly merged National Security Staff, which integrates the former 
National Security Council Staff with the Homeland Security Council 
Staff that was established shortly after 9/11.\7\ That staff carries 
out the day-to-day coordination of domestic and international security 
activities across the interagency and is in a good position to work 
with all the departments and agencies involved in homeland security to 
pull together a coherent strategic plan and ensure its implementation. 
The National Security Staff lacks budgetary responsibility, however. To 
ensure budgetary realism of the strategic plan, the National Security 
Staff should work closely with budget experts from the national 
security division and the homeland security branch of the Office of 
Management and Budget.
---------------------------------------------------------------------------
    \7\ President Obama decided to merge the two staffs in accordance 
with recommendations made under his first Presidential Study Directive. 
See the White House Office of the Press Secretary, ``Statement by the 
President on the White House Organization for Homeland Security and 
Counterterrorism,'' May 26, 2009.
---------------------------------------------------------------------------
    Another choice is the White House Office of Science and Technology 
(OSTP). OSTP holds responsibility for leading the interagency effort 
with regard to science and technology policies and budgets. The NAPA 
panel recommended this option. Specifically the panel recommended that 
DHS S&T work with OSTP and the other federal departments engaged in 
homeland security-related research to develop a comprehensive strategic 
research plan.

Stakeholder Involvement in Setting Research Priorities

    DHS S&T groups its projects into three portfolios: transition, 
research, and innovation. The transition portfolio is meant to deliver 
technologies to DHS components or first responders within three years. 
The research portfolio is aimed at longer-term basic research 
endeavors, expected to take five to eight years or more. The innovation 
portfolio is meant to identify and fund potential ``game changing'' 
technologies--long shots that could lead to ``leap-ahead results.''
    In recent years S&T organized IPTs that bring the Directorate's 
staff together with its customers to establish priorities for projects 
in the transition portfolio. During 2008, there were twelve ``capstone 
IPTs,'' each of which focused on one of twelve areas of science and 
technology: border security, cargo security, maritime security, 
chemical/biological defense, cyber security, information sharing and 
management, inter-operability, counter-IED, transportation, people 
screening, infrastructure protection, and incident management. Each 
capstone IPT is co-led by member of the S&T staff and a representative 
from one of DHS's other components, and includes participants from S&T 
and its customers inside DHS. Each sets priorities for projects within 
its purview.
    It appears that when the IPTs were initiated, little guidance was 
provided on how to operate them. Lacking such guidance, members of each 
IPT devised their own structure and processes through trial and error. 
At the time our study was conducted, S&T was beginning to develop some 
standardized practices, but we still found great variation in structure 
and processes among the IPTs.
    Priorities and projects established through the IPT process are 
reviewed by a Technical Oversight Group (TOG), which exercises 
oversight of the transition portfolio. The TOG is chaired by the Deputy 
Secretary of Homeland Security and includes the Under Secretaries for 
National Protection and Programs, Management, and S&T. To ensure that 
S&T's transition projects are aligned with DHS priorities, the TOG 
makes the final decisions on the list of transition projects. Although 
customers are invited to TOG meetings, some of them told the NAPA staff 
that last-minute invitations prevented them from attending, and that 
they did not understand the basis of the TOG's decisions.
    Projects in the transition portfolio are meant to fill gaps in a 
customer's capability and to be integrated into an acquisition program 
or commercialized after the S&T work is completed. To that end, the 
Directorate asks customers to enter into a Technology Transition 
Agreement (TTA) for each project. TTAs are intended to describe the 
capability gap that the S&T project will fill, the project deliverable, 
the technical requirements and parameters, and the project plan, 
including schedule, funding, and transition approach. At the time the 
NAPA study was conducted, however, few TTAs had been signed, thus 
calling into question their usefulness.
    The IPTs appear to be useful vehicles for involving DHS's internal 
stakeholders in setting research priorities. The NAPA study found that 
customers generally characterized the S&T staff as accessible and 
responsive to their concerns. We also found the IPT process to be 
flexible enough to accommodate any changes needed to respond to new 
threats or other circumstances, and to encourage information exchange 
among DHS's components.
    Nevertheless, the NAPA study identified several factors that keep 
the IPTs from fulfilling their intended role. These include:

        <bullet>  The IPTs are not adequately institutionalized, and 
        may not be able to withstand changes in leadership.

        <bullet>  The customer focus of the IPT process may obscure 
        important opportunities inherent in innovation, gaps in 
        knowledge, or opportunities that cut across S&T's divisions.

        <bullet>  The roles and responsibilities of participants are 
        not explicitly defined, and the lack of clear definition has 
        caused confusion among customers and frustration among some S&T 
        staff.

        <bullet>  TTA agreements largely go unsigned, and since IPT 
        budgets are fixed separately from the TTA process, there is no 
        incentive for customers to sign them.

        <bullet>  Customers do not fully understand the TOG process.

        <bullet>  There is no standard mechanism for collecting input 
        from non-DHS customers, including first responders at the State 
        and local levels.

        <bullet>  Processes and procedures for running the IPTs are not 
        adequately standardized.

        <bullet>  Customers lack incentives for investing the time and 
        effort needed to make the IPTs maximally effective.

    Two other factors stand in the way of rational priority-setting 
across S&T. First, the process of allocating budgets among the various 
IPTs is not transparent, but seems to be based broadly on the share of 
homeland security-related science and technology funding held by the 
components before they were consolidated into the department in 2003. 
Thus, the broad allocation of money among the IPTs does not necessarily 
reflect DHS-wide priorities or allow for taking advantage of the most 
promising opportunities. Second, the transition portfolio managed 
through the IPTs accounts for only about one-half of Directorate 
funding. The mechanisms for establishing priorities for a substantial 
share of its work, particularly those for the basic research portfolio, 
are less clear.

The Role of Basic Research in the DHS S&T Portfolio

    Basic research accounts for a bit more than 20 percent of S&T's 
budget. Of that, some 31 percent is performed by universities; 31 
percent by industry; 26 percent by the National Laboratories; ten 
percent by other federal laboratories; one percent by federally funded 
research and development centers; and one percent by other not-for-
profit enterprises.
    Basic research is the seed corn for the development of future 
technologies that could ultimately protect the Nation more effectively 
and at lower cost, and no other organization in Federal Government has 
the mandate or the wherewithal to sponsor basic research in key 
homeland security-related areas such as border protection, immigration, 
or aviation security. The budget share that S&T devotes to basic 
research appears generally consistent with the practice in other 
security agencies, particularly the DOD.
    That said, the NAPA panel found potential weaknesses in DHS's 
allocation of basic research funds among projects, the integration of 
research among its various research performers, and the processes used 
to select research projects and monitor their performance. We thus 
offered the following recommendations:

        <bullet>  Develop and implement clear and transparent processes 
        and criteria for identifying basic research needs, prioritizing 
        projects, and selecting performers.

        <bullet>  Ensure S&T builds on current efforts to integrate 
        research across the National Laboratories, Centers of 
        Excellence, and other performers.

        <bullet>  Make competitive processes that include external 
        scientific peer review the norm for basic research.

Concluding Remarks

    When the panel report was released in June 2009, the leadership of 
the DHS S&T Directorate readily accepted the panels recommendations and 
agreed that these issues require attention. The absence of a confirmed 
Under Secretary to head the Directorate has no doubt limited the 
ability of the Directorate to respond fully to the recommendations. The 
Academy and the panel believe that their implementation would 
significantly improve the effectiveness of S&T, and are ready to assist 
the organization as appropriate.

                      Biography for Cindy Williams
    Cindy Williams is serving as the J.B. and Maurice C. Shapiro 
Visiting Professor of International Affairs at the Elliott School of 
International Affairs of the George Washington University for the fall 
2009 semester. She is currently on leave from the Massachusetts 
Institute of Technology, where she is a Principal Research Scientist of 
the MIT Security Studies Program. Her work at MIT includes an 
examination of the processes by which the U.S. Government plans for and 
allocates resources among the activities and programs related to 
national security and international affairs and an examination of the 
transition to all-volunteer forces in the militaries of European 
countries.
    Previously, Dr. Williams was an Assistant Director of the 
Congressional Budget Office, where she led the National Security 
Division in studies of budgetary and policy choices related to defense 
and international security. She has also served as a Director and in 
other capacities at the MITRE Corporation in Bedford, Massachusetts; as 
a member of the Senior Executive Service in the Office of the Secretary 
of Defense at the Pentagon; and as a mathematician at RAND in Santa 
Monica, California.
    Dr. Williams holds a Ph.D. in mathematics from the University of 
California, Irvine. She is a co-author, with Gordon Adams, of Buying 
National Security: How America Plans and Pays for Its Global Role and 
Safety at Home (Taylor and Francis, forthcoming December 2009). She is 
the editor of two books: Holding the Line: U.S. Defense Alternatives 
for the Early 21st Century (MIT Press 2001) and Filling the Ranks: 
Transforming the U.S. Military Personnel System (MIT Press, 2004), and 
the co-editor, with Curtis L. Gilroy, of Service to Country: Personnel 
Policy and the Transformation of Western Militaries (MIT Press 2006). 
She is a member of the board and an elected fellow of the National 
Academy of Public Administration and a former member of the Naval 
Studies Board of the National Academies. She is a member of the Council 
on Foreign Relations and of the International Institute of Strategic 
Studies. She serves on the editorial board of International Security 
and the advisory board of the Scowcroft Institute of International 
Affairs at the Bush School of Government and Public Service of Texas 
A&M University, and is on the advisory committee of Women in 
International Security (WIIS).

                               Discussion

    Chairman Wu. Thank you very much, Dr. Williams. And now it 
is in order for Members of the Committee to ask questions, and 
the Chair recognizes himself for five minutes.
    Mr. Buswell, I want to commend you and Vice Admiral Cohen 
for the job that you all have done. I believe that Admiral 
Cohen's goal was to increase basic research to 20 or 21 
percent, and you have hit that metric. I think that on the 
basic research front, there may be some further discussion 
about how well that research is linked to the missions of DHS, 
but I think that overall, it is very, very important and 
commendable that you all have achieved that metric.
    I also think that it is very commendable that you have 
improved the IPT process significantly, and this panel may want 
to return to that topic. But there has been dramatic 
improvement on that front.
    The area of concern which I would like to discuss with you 
and the panel is whether a systematic risk assessment and a 
strategic plan based on at least in part on that risk 
assessment would be helpful to the S&T Directorate and helpful 
to DHS? I think that there was some concern from outside that 
perhaps the Vice President's Office drove priorities by a 
tremendous amount. I am gratified to hear that it has become a 
more customer-driven process, and I think that is commendable, 
but a completely customer-driven process may not hit the risks 
that you want to hit. And I would like you to tell this 
subcommittee what has prevented the S&T Directorate in engaging 
in a more systematic risk assessment, and then I would like to 
encourage the rest of the panel to address what a more 
systematic, strategic plan and also use of risk assessment, 
particularly an all-hazards approach, how that might benefit 
the S&T Directorate and DHS overall. Mr. Buswell, would you 
like to start this?
    Mr. Buswell. Yes, sir, Mr. Chairman. Thanks very much. The 
answer to your question, you know, does a systematic or 
comprehensive risk assessment help us in prioritizing our 
technology development is absolutely. And the way that I think 
that it helps us do that is it helps the components whom we 
serve to identify their priorities in a more systematic way. 
Let me just say that as I am part of the QHSR (Quadrennial 
Homeland Security Review) steering committee. I don't want to 
get out in front of the headlights and usurp the Secretary's 
prerogative on the QHSR, but there is a substantial effort 
within that organization to address this risk assessment 
process and to define the scope with which the Department ought 
to address that. And I think we will be hearing more about that 
over the coming months, and S&T is delighted to provide input 
to that risk assessment, whether it be scientific modeling 
input or other kinds of capability gap identification processes 
that we have in place. And I think that over the long-term, 
that will be a very valuable tool for the Department at large 
in identifying the operational requirements that it needs to 
address, both with technology and other ways. As Mr. Berteau 
said, though, this is a difficult thing to do, but we are 
committed to doing it because it is the right thing to do and 
it is the only way to get the best return for the investment.
    Chairman Wu. Well, prior hearings on this topic have been 
somewhat contentious. It is rewarding to see that there has 
been progress made on the basic research front, on the IPT 
front, and I look forward to a report a year or two down the 
pike that we will be making--that we have made progress on 
systematic risk assessment and a strategic plan.
    Mr. Berteau, Dr. Depoy, Dr. Williams, would you care to add 
to this discussion about the strategic plan and about risk 
analysis?
    Dr. Williams. I would like to.
    Chairman Wu. Please.
    Dr. Williams. It strikes me that the assessment or threats, 
risks and vulnerabilities is crucial to the development of 
goals and priorities, and that has to be the thing that starts 
the ball rolling on any strategic plan. Only with a firm 
strategic plan will the organization be able to decide on 
whether it should prefer this over that, this transition work 
over some other transition work, possibly in a completely 
separate part of the Department of Homeland Security.
    Now, one of the problems the S&T Directorate has faced in 
the past was that it didn't have that threat and risk 
assessment coming down from the top of the Department, or even 
from across the Federal Government. And I can understand that 
that is an issue for them, and they are hoping that the 
Quadrennial Homeland Security Review will produce a threat and 
risk assessment that they will be able to work with to 
establish their own internal goals. If that should not happen, 
if for some reason the threat and risk assessment that comes 
down from the top appears to be lacking, it strikes me that 
they still need to do something on their own to establish the 
threats and risks that they believe they are working to, even 
if it is dead wrong over the long-term, even if it is not what 
they want five years from now. They need something internally 
to start the ball rolling and to be part of their strategic 
planning.
    Chairman Wu. Mr. Buswell, are you waiting for the 
Quadrennial Review to supply you with a plan from on high or 
risk assessment also?
    Mr. Buswell. We are working in parallel with the 
Quadrennial Review on our own S&T strategic plan. What I want 
to emphasize though is we are not the tail wagging the dog 
here. We want to make sure that we are providing the 
technologies that are of the highest importance to the 
Department, and that is the way we intend to approach this. I 
am confident that the Department will be able to establish 
strategic goals and objectives out of this strategic review, 
this Quadrennial Review. The risk assessment is a longer-term 
effort, and the risk assessment part of that will take--and 
will be iterative over a number of years and really will never 
be an ending effort because the threat constantly changes.
    So I am confident that we will have some input into our 
strategic plan. Now, keep in mind, you know, from my 
perspective, science and technology should be not the end of 
the whip but the handle of the whip, and as the strategy 
changes, we ought to--our long-term focus ought to result in 
smaller changes within the S&T portfolio assuming that we are 
investing in things that are relevant to homeland security, 
then maybe some other things, some other strategic initiatives 
might that can offer near-term solutions, you know, policy 
changes and tactics changes and those kinds of things that can 
be implemented more quickly than technology can be developed.
    Chairman Wu. Before we move onto Mr. Smith, if either you, 
Dr. Depoy, or you, Mr. Berteau, have something to say about 
risk assessment, threat assessment and this strategic plan, I 
want to open it up to you all.
    Mr. Berteau. Thank you, Mr. Chairman. I would note two 
things that I think are in addition to the comments that my 
colleagues have made here today. One is that we have a tendency 
to evaluate the efficacy of planning by how well it predicts 
the future, and that is the wrong metric to determine whether 
or not planning was of any value to us. Its real value is in 
how well it prepares us to deal with the future that we can't 
predict.
    And so it is possible under that kind of a rubric to look 
like you are fully compliant with OMB circular A-11's 
requirements for strategic plans and you give GAO something 
that they can check or not check everything that you have or 
have not done, and yet it has done nothing to actually prepare 
you better to deal with a future that you can't predict. So we 
need to be careful that we don't get caught up into a checklist 
mentality for the value of strategic planning.
    The second is that a big element of that value comes from 
the process itself, and threat assessment and risk assessment 
as well as incorporating existing legislation and existing 
strategies and stakeholder input, all of that comes into play. 
But what that process needs to produce is something that looks 
like strategic guidance, something that says to everybody 
involved in the homeland security enterprise, this is what is 
important. This is what you need to spend your time and effort 
on. This is where you spend your marginal dollars when they 
become available. This is how you know how to prioritize. That 
strategic guidance is a clear and important element of this 
process, and if it is not present, people have to make 
assumptions, and the assumptions may not be consistent, either 
across the enterprise or over time.
    Chairman Wu. Thank you, Mr. Berteau.
    Dr. Depoy. I would just emphasize the point that Mr. 
Berteau made earlier that this does have to be an enterprise-
wide effort, and certainly the operating components must be a 
part of this plan. It can't be produced in the Directorate by 
itself.
    Chairman Wu. Thank you very much. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. Dr. Williams notes in 
her testimony that the NAPA review of DHS Science and 
Technology found that many basic research projects funded by 
Science and Technology are done so without competition or peer 
review and that the Directorate should work to make peer review 
and competition standard unless it is clearly not feasible.
    Mr. Buswell, do you agree with the finding and 
recommendation, and if so, how would you say it is being 
addressed?
    Mr. Buswell. Well, thank you, sir. I generally agree that 
competition is good and that peer review is certainly one means 
of selecting--ensuring that we are selecting high-quality 
projects and that those projects are being executed in a high-
quality way.
    Peer review using both internal and external reviewers as I 
said is a valuable way to do that. As Dr. Williams' panel 
noted, we have had quite a bit of success in the Centers of 
Excellence selection process which fundamentally does select 
some of the projects, a good number of the projects, that are 
conducted in the basic research portfolio through both internal 
and external review in series. And I think, you know, as I said 
the goal is to make sure we are getting out of the investment 
what we think we should.
    Let me also say that all proposals that come in through the 
broad agency announcement process are in effect peer reviewed. 
Those proposals are reviewed by a panel of experts, subject 
matter, and perhaps stakeholder kinds of--you know, 
practitioner kinds of review to make sure that the proposal is 
sound and that it is executable and scientifically feasible. So 
in general, yes, I think that more competition is good. We 
establish a lot of that competition through the selection of 
the Centers of Excellence, university-based Centers of 
Excellence, and we intend to continue to do that. We have been 
very successful in that realm. And then the other part of this, 
you know, as I said, the two pillars of basic research are the 
Centers of Excellence and the DOE National Laboratories, and we 
have started a renewed effort within the Directorate to ensure 
that the investments that are going to the national 
laboratories are being done to the best effect of the taxpayer 
dollars, or you know, in the best interest of the government.
    And I look forward to strengthening that process with the 
national laboratories over the coming year. I think that is one 
of the things that we can improve Directorate-wide.
    So short answer to your question, yes, I agree with their 
recommendation, and to the extent feasible, we should encourage 
competition to make sure that we get the most benefit for the 
taxpayer dollar.
    Mr. Smith. Thank you. And Dr. Williams, you noted in your 
testimony about milestones to track programs and that they may 
not be meaningful indicators of progress, and there appears to 
be little or no consequence for missing them. Could you 
elaborate on the finding and certainly your recommendation, and 
then Mr. Buswell, if you could provide reaction from the 
Department's perspective?
    Dr. Williams. One of the things the panel looked at was 
whether the Directorate has processes in place to know what is 
going on inside of its projects. Have they established 
milestones? Are the projects meeting their milestones? And we 
noticed that there are milestones established, but it seemed as 
though the majority of projects were missing their milestones, 
and there was very little consequence--at the time that we 
looked at the Directorate--for missing a milestone. In fact, 
the main consequence seemed to be to renegotiate the milestone 
and start fresh with a new milestone on the same project.
    We found that, for one thing, there wasn't a good record of 
what is going on that is causing so many projects to miss their 
milestones? Is there one thing that is happening continually? 
Are the milestones just not realistic from the beginning? And 
so we suggested that DHS S&T do some systematic effort within 
the Directorate to pull together what is known about the 
milestones and why projects are missing them, and see if they 
can start to identify any patterns in that regard.
    Mr. Smith. Mr. Buswell.
    Mr. Buswell. That was an excellent observation by the 
panel, and we appreciated their input on that. We have done a 
number of things. First of all, let me say that the milestone--
using milestones as a metric of success and program management 
is only as good as the milestones that you establish. So we 
have taken a two-pronged approach to this. One, we are looking 
at milestone development. You know, what is a meaningful 
milestone and what isn't a meaningful milestone? What are we 
actually using to decide at some point in the process whether a 
project should go forward or not? I mean, is this actually 
going to result in a technology that will be of benefit to the 
Department or of benefit to the first responder community? And 
so what are the key decision points? What are the key phase 
gates that we want to meet in managing those projects? So that 
is the first area that we focused on is in establishing good 
milestones.
    Second, you know, in response largely to the review that 
NAPA did and some input that we had gotten from the Department, 
program analysis and evaluation, I have tied the six division 
heads' performance evaluations to their division's meeting of 
milestones. And so it is tracked very carefully. They watch 
their program managers. Their program managers are evaluated on 
meeting those milestones, and that is an effective tool I think 
to making sure that that happens.
    Now, there is always unintended consequences. Our goal is 
to get technological capabilities to our customers. Our goal is 
not to properly manage projects. So I need to make sure that I 
am not disincentivizing the program managers who may come 
across a technology that leaps their program of record, you 
know. They would have no incentive to abandon the program of 
record because they are getting measured on whether they are 
meeting the milestones in that program or not in order to adopt 
this leap-ahead technology.
    So there is a balance here that I need to make sure I keep 
which is, you know, maybe meeting 75 percent of the milestones 
is a reasonable number. I don't know. That is where we started. 
We started with setting the goal of 75 percent of milestone 
completion. We achieved that metric this year. So if those are 
good milestones, then maybe we are there, but at the same time, 
I want to continue to reward those program managers who 
abandoned their program of record because they found something 
that will actually deliver a capability sooner than their 
program would have.
    Mr. Smith. Okay. Thank you. Thank you, Mr. Chairman.
    Chairman Wu. Thank you very much, Mr. Smith. Mr. Tonko, 
would you prefer to defer your questions right now?
    Mr. Tonko. Yes.
    Chairman Wu. Ms. Biggert, you are recognized for five 
minutes.
    Ms. Biggert. Thank you, Mr. Chairman. I would direct this 
question to Mr. Buswell. Anthrax has been mentioned as DHS's 
number one terrorist threat, a threat supported by the findings 
of the Commission on the Prevention of Weapons of Mass 
Destruction Proliferation and Terrorism's recent progress 
report titled The Clock is Ticking. Could you tell us about or 
explain for us the role of the Directorate in addressing this 
threat and the focus of science and technology in bio 
preparedness?
    Mr. Buswell. Yes, ma'am. Let me start by saying that the 
principle role of the Directorate in the National bio defense 
effort has to do with the threat assessment and determination 
process. So what are the highest threats, what are the threats 
that we have to worry about above all others, whether that is 
due to the likelihood that a terrorist could get a hold of this 
material, whether it is due to the consequences of a successful 
attack using the particular pathogen, and there are a lot of 
things that go into that threat assessment. So one of our major 
efforts is this bi-annual, bioterrorism risk assessment that 
has been delivered to the Federal community and drives the 
investment priorities across the Federal Government in bio 
defense, whether those investment priorities are in 
surveillance, bio surveillance, environmental, or other kinds 
of surveillance, whether that is in the prioritization of 
vaccine development within DHS enterprise, or other kinds of, 
you know, intelligence community activities that might occur. 
So the threat assessment is fundamental to the activities of 
biodefense across the government.
    The second thing that we do within the S&T Directorate that 
really isn't done anywhere else in the government and so is a 
unique mission that we have has to do with the bio forensics 
aspect of things. What if there should be a successful attack 
such as happened in 2001? We now have the National Bio 
forensics Laboratory at Fort Detrick that DHS S&T operates in 
order to attribute the attack in a way that is meaningful from 
a law enforcement standpoint. In other words, we have got--we 
have partnered with the FBI such that we maintain chain of 
evidence, we do those kinds of things that will eventually 
result in successful attribution and prosecution of folks who 
do that kind of thing.
    Ms. Biggert. Thank you. Then just one other question on 
cybersecurity research. It seems like the bulk of the 
activities are operational focused and are in the national 
protection and programs, their Directorate. However, our 
Committee has consistently emphasized the importance of R&D to 
successfully addressing cybersecurity over the long-term. With 
that in mind, could you talk about the Directorate's 
cybersecurity R&D portfolio and if there is any new 
technologies like the SmartGrid that are being included in 
research assessments?
    Mr. Buswell. Yes, ma'am. Our investment in cybersecurity 
over the last three years has essentially tripled, much to the 
credit of highlighting the importance by committees such as 
this subcommittee and then the identification within the 
President's own agenda. So the input function, if you look at 
funding that way, is going the right direction in my opinion. 
And we are about where we should be for the near-term. The key 
then becomes how do you link the priorities of that research to 
the overall priorities of both the Department and the Nation? 
And that is an area that we can improve significantly, and I am 
working closely with the folks over at NPPD (National 
Protection and Programs Directorate), Phil Reitinger who is the 
Deputy Under Secretary at NPPD and is really responsible for 
the Department's cybersecurity effort. We meet biweekly in a 
steering group that identifies not just the R&D priorities but 
what are the cybersecurity priorities for the Department and 
how, from a collective effort within the Department, can we 
best advance those priorities?
    So I will tell you that there is a lot of work to be done 
in cybersecurity, but there is a lot of people doing work as 
well. So the integration of all the efforts going on, both in 
the public and the private sector, is fundamental to the 
success of cybersecurity. Dr. Depoy's panel did an excellent 
report for us on cybersecurity and has established a number of 
recommendations. I don't know if you have time to expand upon 
that, but we do have a number of priorities, and SmartGrid 
technology, for example, to the extent that we can prevent 
attacks on the grid from cyberspace fundamental to the 
continuity of those systems which are important to the security 
and the stability of the country. We will invest in those, in 
cooperation with the Department of Energy who also has 
responsibility for the reliability of the electric grid.
    Ms. Biggert. Thank you. Thank you very much. I yield back.
    Chairman Wu. Thank you. Mr. Tonko.
    Mr. Tonko. Yes. Thank you. Thank you, Mr. Chair. Perhaps to 
Mr. Buswell but anyone on the panel might have some input here. 
I do understand that at DHS you have to some degree on a 
limited basis resorted to that turnaround of program managers 
in your S&T operation, and it seems to be a practice that is 
resorted to by DARPA (Defense Advanced Research Projects 
Agency) and NSF (National Science Foundation) quite frequently. 
Is there a way to stretch that concept over a greater number of 
programs? How would you expand that practice within DHS to 
perhaps utilize that rotation more frequently?
    Mr. Buswell. Thank you. That is a great concept. The 
Congress in its wisdom in the Homeland Security Act of 2002 
gave S&T specifically the Homeland Security Advanced Research 
Projects Agency, HSARPA, the authority, same authority as that 
DARPA has, to hire technical experts out of the private sector 
or other civil service on a term basis, and that term is five 
years. It can be extended up to two more years under certain 
circumstances. We have the authorization to hire 20 such of 
these folks. We currently have 11. They are tied to the HSARPA 
portfolio primarily. It is about a $44 million a year 
portfolio, 11 is about the right number to manage programs in 
that funding area. You know, to stretch that beyond what we are 
doing right now, we would need to increase the innovation 
portfolio funding level which I would be delighted to do. But 
for right now, we are about at the right place I think with 
that. And you are right, it is a valuable tool. It gives us 
special hiring authority, special compensation authority so 
that we can get really top-quality people out of the private 
sector and out of other areas of government to manage these 
kind of programs. It is paying off very well for us.
    Mr. Tonko. Any particular way to expand that program, there 
would be certain focus to where you would use these three- to 
four- to five-year assignments?
    Mr. Buswell. The focus that I would use on is in the highly 
innovative kinds of research, in the things that are very high 
risk, higher risk than we typically address in the Capstone IPT 
process. But that is what the innovation portion of the 
portfolio is for. It addresses the high-risk prototypical 
demonstrations that again, because they are high risk with a 
significant probability of failure, customers can't rely on us 
to provide that solution in the time that they might need it. 
So the analogy that is sometimes used is the Capstone IPTs 
provide the three megapixel camera to the five megapixel camera 
to the ten megapixel camera while we are looking in the 
innovation portfolio at the gigapixel camera. What can we do 
with a gigapixel camera that we can't do with the incremental 
improvement that would tend to pursue lower risk in the 
Capstone IPT process?
    So that is the area I think that those--and that is the 
area that we have the authorization to do that kind of hiring, 
and to me that makes the most sense because you want to get 
people in that are fresh out of the technology development 
arena, you know, to manage those kinds of cutting-edge 
programs.
    Mr. Tonko. Thank you. Mr. Berteau.
    Mr. Berteau. Yes, sir. I would like to add one additional 
thought to your question of opportunities for expanding what I 
think is a very useful potential to augment and enhance the 
capability of the government workforce here.
    When the S&T Directorate was originally established, I 
think it was envisioned that it would have a more substantial 
and more powerful role in the acquisition side of the 
Department of Homeland Security than has evolved over time. I 
think we have an opportunity with a new Administration to 
reevaluate and reconsider that. When I go back to the point I 
made about there needs to be better planning for transition of 
research into programs, that is one of the areas where I think 
not only could the S&T Directorate play a better role across 
the Department but where in fact the opportunity for the term 
appointments and the capability that they bring both at the 
individual and the collective level would offer tremendous new 
capability for the entire homeland security enterprise.
    Mr. Tonko. Anyone else? Mr. Chair, I yield back.
    Chairman Wu. Thank you very much, Mr. Tonko. I want to 
follow up on Mr. Tonko's inquiry because you know, this has 
become a topic of great interest to me that some federal 
agencies do a very good job of rotating people in and out of 
Washington, D.C., whether it is for a multi-week internship or 
for a few months or in some instances for a few years for 
positions as significant as being a program manager. DARPA does 
this, NSF does this, NIH (National Institutes of Health) does 
this and integrates scientists from, in the NIH instance, 
integrates scientists from around the country into the grant 
review and peer review process. And I would like the panel to 
comment on how useful this might be. And Mr. Buswell, I would 
like you to respond. You know, outside of the formal program of 
20, what impediments do you see to DHS and the S&T Director 
implementing a broader program of linkages to academic centers, 
think tanks, the private sector for bringing people in and out? 
Because it is not just for the benefit of the S&T Directorate. 
I think the residual benefit for the rest of the country is an 
appreciation for how the agency works and indeed how Washington 
works in some respects. And I would like to the extent any of 
you are interested in commenting on this, all of you to comment 
on it. Mr. Buswell, would you like to start?
    Mr. Buswell. I would love to, yes, sir. Thank you, Mr. 
Chairman. There are a number of other opportunities besides 
the--we call it the 1101s because it comes from the Defense 
Authorization Act, Section 1101. So these 11 employees that we 
have are affectionately termed 1101s. There are also a number 
of fellowship opportunities that we taken advantage of, 
Presidential Management Fellows, AAAS (American Association for 
the Advancement of Science) Fellows, those kinds of things that 
I think are very valuable in getting people into the 
understanding of the Federal Government research and 
development community.
    Our scholars and fellows program within the Centers of 
Excellence is also one of the fundamental things that I think 
we are doing to improve that understanding and to get that 
rotation. We have funded over the last six years over 400 of 
these scholars and fellows across the country in areas of 
academic development that we think are fundamental to homeland 
security. They do internships in the summertime with the 
national laboratories and other federal research and 
development entities, and we think that that is really 
valuable. We don't have enough statistical information yet on 
the graduates to understand whether or not they are pursuing 
careers in the Federal Government at least to start with, but 
we are hopeful that it will result in, you know, a 10 to 20 
percent perhaps participation of our scholars and fellows 
graduates in long-term federal employment.
    The other area that we can utilize and we do utilize to a 
certain extent is the Intergovernmental Personnel Act 
authorities where we are able to bring on folks from State and 
local governments or from non-profit organizations that can 
then work--they have really all the authorities of a federal 
employee with certain limitations dealing with their parent 
organization, you know, conflict of interest limitations as you 
would expect. But to a large extent, they are able to gain a 
great understanding of the way that we work within DHS, and 
they can take that back to their parent organization at the end 
of a two-year period and utilize that to the benefit of their 
organization and to the benefit of our organization as well.
    Chairman Wu. Thank you very much, Mr. Buswell. Comments 
from the rest of the panel in general or specifically, whether 
DHS is sufficiently linked to the relevant research community. 
Dr. Williams.
    Dr. Williams. We used the word insularity in our report, 
and that may have changed over the past few months. But we were 
concerned that the Directorate wasn't reaching out enough to 
the outside world and that that caused two potential problems. 
One is that that limits the access to the ideas and innovations 
that are going on on the outside for those who are working 
inside the Directorate. But secondly as you pointed out, it 
limits the ability of the community, the wider community, to 
learn what is going on inside the Department of Homeland 
Security and to start thinking about the problems that that 
department has.
    We noticed it particularly in our discussions of the need 
for a peer review process. In several interviews we were told 
explicitly by members of the staff in the Directorate that peer 
review from outsiders wasn't needed because the program 
managers themselves were the world's experts in the area where 
they were reviewing projects.
    Now, I doubt that they are the only world's experts, but if 
they are the only world's experts, it tells you that we are 
desperately in need as a Nation of getting their thinking, 
their expertise out to a wider community, so that they won't be 
the world's only experts in the future. And that thought built 
value for us into the notion of having much more external peer 
review.
    Chairman Wu. Thank you, Dr. Williams. Dr. Depoy.
    Dr. Depoy. Yes, I saw one very good example of this kind of 
connectivity last summer and the summer before. The chem bio 
IPT annually holds a three-day meeting in which they invite a 
lot of people from throughout government and academia, and they 
review nearly all their projects each year and ask for their 
comments and certainly suggestions, as well as where similar 
projects are going on in other agencies. And it was one of the 
best meetings like that I have attended anywhere in the 
government. But I believe that is the only IPT that has done 
that as far as I know. But I think they have done it now for 
several years.
    Chairman Wu. So a model for emulation?
    Dr. Depoy. Yes, absolutely.
    Chairman Wu. Mr. Berteau.
    Mr. Berteau. Thank you, sir. I think there is one other 
potential advantage to an expansion such as Mr. Tonko has 
offered and you have continued in the discussion here and that 
is the benefit back to the user community. I think one of the 
real challenges in homeland security S&T is that the users 
often do not know the art of the possible. They are trying to 
set a request or a requirement based on what they think they 
need without having really defined the problem and without 
knowing the art of the possible. And I think one of the 
downstream benefits of expanding this kind of involvement with 
people is the benefit upon return and going back to where they 
have come from. And if we build that into the process there 
could be some additional advantages downstream.
    Chairman Wu. Thank you very much. I think this will be a 
topic of continuing interest to the Subcommittee.
    Do we have any further inquiries on this side? Mr. Tonko? I 
understand that you all have worked very hard on your 
testimony. I would like to offer you a moment to comment on any 
other aspects of the topics that we have been delving into that 
we have not covered in Q&A or in your written testimony. I want 
to offer you an opportunity to expand on any thoughts that you 
think would be helpful for this subcommittee's inquiry. Mr. 
Berteau.
    Mr. Berteau. I do have one final thought for you to keep in 
mind as you are evaluating DHS's performance in this regard. It 
has been my observation from my time in Washington that much of 
the Federal Government tends to do its research work, and the 
beneficiary or the customer is outside the government. It is 
the general population or some subset of the general 
population. They may not know who they are at the time the 
research is done, but that is the goal of those programs.
    In some agencies, the Defense Department being perhaps 
being the primary one here, the beneficiary of the research is 
actually internal. Most of the research that the Defense 
Department does it does for itself. It is the ultimate consumer 
of that research, and that tends to have a different focus, a 
different validation process, maybe even a different peer 
review process.
    DHS is a hybrid of the two, and in some cases, that makes 
it much more complex and much more difficult for all of those 
elements to be welded together. And I think it is useful as you 
set your bar of how DHS is performing to keep that in mind, 
that it really is a hybrid. Much of what it does it does for 
itself or at least for the broader first responder community. 
Much of what it does it also does for the external community. 
And sometimes those are two different processes and two 
different standards. So I would leave that just for your 
thought.
    Chairman Wu. Thank you very much, Mr. Berteau. Dr. 
Williams.
    Dr. Williams. If I could bring up one other point. We 
talked about how important the internal process is once you are 
inside an IPT, for making sure that the priorities that are set 
within an IPT have something to do with the customer's needs 
and what the customer is asking for. But one of the astonishing 
things we found was that there is no transparent mechanism at 
all to compare priorities and reallocate the transition funds 
among the various IPTs. And that means the broad allocation of 
money across the Directorate doesn't necessarily reflect key 
priorities or allow for taking advantage of emerging 
opportunities that may happen in one area as opposed to the 
other. It also means that the bottom of the funded projects in 
one IPT may be significantly less important to DHS as a whole 
than something that is close to the top of the unfunded 
projects, again because there is no comparison and work across 
the IPTs for setting priorities.
    Now, some of this goes back to the fact that there is no 
strategic plan. With no genuine strategic plan, there is no 
established goals that everybody agrees to, and that makes it 
hard to try to divide the money up any different way among the 
IPTs than the way it was divided last year. But it struck us 
that something needs to be done about that. They need an 
explicit mechanism within the Directorate for dividing money 
among the IPTs.
    Chairman Wu. Thank you very much, Dr. Williams, and thank 
you all very much for contributing to our consideration and 
contributing to Mr. Buswell and the Department's consideration. 
I think it is fair to summarize that much progress has been 
made since this series of hearings began. We will continue this 
series of hearings, and we look forward to making additional 
progress with the S&T Directorate and with DNDO. We do face 
some different challenges as Mr. Berteau pointed out that this 
is a hybrid organization with significant consumption within 
the Department but also a large customer base for its products 
outside the Department, and that presents some special 
challenges.
    I want to thank all the witnesses for appearing this 
afternoon. The record will remain open for two weeks. I expect 
that there will be some submitted questions about the IPTs and 
consistency. And Members and the staff may seek answers to any 
follow-up questions that the Committee may ask.
    Again, I want to thank you for your testimony and your 
presence here today. The witnesses are excused, and the hearing 
is adjourned.
    [Whereupon, at 3:20 p.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Bradley I. Buswell, Acting Under Secretary, Science and 
        Technology Directorate, U.S. Department of Homeland Security 
        (DHS)

Questions submitted by Chairman David Wu

Q1.  Currently the roles and responsibilities of IPT participants are 
not explicitly defined. What effect has this had on DHS customers and 
DHS S&T staff? How can DHS S&T better define these roles and 
communicate them to the participants?

A1. I agree with the need to formalize the Capstone IPT process roles 
and responsibilities. The S&T Directorate now has the experience to 
recommend standardized best practices based on its work with the 
Capstone IPT Process over the past two years. The timing is right to 
develop a Management Directive that formalizes the Capstone IPT 
alignment to DHS enterprise goals, priorities, and processes, and 
formalizes Capstone IPT roles and responsibilities. As with the 
initiation of the Capstone IPT process, we will brief all components 
and participants on the roles and responsibilities being formalized in 
the Management Directive.
    Capstone IPT roles and responsibilities will also be re-enforced 
during Technology Oversight Group (TOG) meetings, which are chaired by 
the Department's Deputy Secretary, and during the semi-annual Under 
Secretary for Science and Technology Technology's Capstone IPT Review.
    Internal to the S&T Directorate, we are developing a phase gate 
process. The phase gate process provides program managers with a 
program management roadmap for project execution. Various gates are 
established for project review to ensure all documents are complete and 
on schedule. We are also developing program manager training to further 
instill the process. Additionally, we hold weekly meetings with the 
transition managers embedded in each of the six S&T Directorate 
technical divisions. During these meetings, the IPT process is refined 
and discussed for further dissemination to the program managers in the 
divisions.

Question submitted by Representative Ben R. Lujan

Q1.  National Laboratories, such as the two Department of Energy 
National Labs in New Mexico, conduct a substantial amount of basic 
research. Can you elaborate on how the National Laboratories can stay 
tied into the basic research that is a part of the DHS S&T portfolio?

A1. The Department of Energy (DOE) national laboratories provide a 
unique, world-renowned, interdisciplinary research capability that is 
of tremendous value to the Nation in general and to the Department of 
Homeland Security Science and Technology Directorate (S&T) 
specifically. S&T, through both the DHS Office of National Laboratories 
(ONL) and S&T's technical divisions, works closely with DOE and its 
national laboratories to identify opportunities for DHS to harness the 
capabilities of the national laboratories to address the near- and 
long-term technological needs in homeland security research. In 
addition, DHS and DOE work together closely to develop and streamline 
processes for collaboration and placement of work at the laboratories 
once the work is identified, given DHS's special access to DOE's 
national laboratories.
    The Office of National Laboratories, established by the Homeland 
Security Act of 2002, routinely leads and participates in meetings and 
teleconferences with representatives of DOE and its national 
laboratories to discuss S&T research priorities and laboratory 
capabilities to meet those needs. ONL also holds and participates in 
workshops and other events that provide opportunities for basic 
research leads within each S&T technical division to discuss their 
research portfolios with representatives of the research community, 
including representatives of the DOE laboratories. ONL is planning 
additional workshops that will focus on specific research areas of 
interest. The DOE labs will be important participants in those 
workshops, which are also intended to help form a research community 
for homeland security technologies and maximize opportunities for the 
application of capabilities, resources, and technologies, including 
those of DOE's national laboratories, in addressing DHS's homeland 
security mission.
    One specific instance of collaboration of benefit to both agencies 
and the national laboratories is DOE's invitation to representatives of 
ONL and S&T's program divisions to participate in the DOE meetings 
relating to its review of the national laboratories' Laboratory 
Directed Research and Development (LDRD) activities. This collaboration 
provides the opportunity for DHS to leverage the outcomes of LDRD 
efforts by the national laboratories and offers the laboratories 
opportunities to align portions of their LDRD portfolios to research 
and development activities that can satisfy DHS homeland security 
needs.
    The Science and Technology Directorate also collaborates with DOE 
and its national laboratories in aligning the best capabilities of the 
laboratories to the needs of S&T's six program divisions. This 
alignment provides S&T program managers a high quality resource in 
leveraging the S&T research mission.
    In its commitment to find the best technologies available to 
address homeland security research and development needs, the S&T 
publishes a brochure, Basic Research Focus Areas, which identifies gaps 
in homeland security technologies that, if solved, could result in 
scientific breakthroughs for the benefit of the Nation. The brochure is 
provided directly to the DOE national laboratories and is available at 
http://www.dhs.gov/xlibrary/assets/
st<INF>-</INF>basic<INF>-</INF>research<INF>-</INF>focus<INF>-</INF>area
s<INF>-</INF>may<INF>-</INF>2009.pdf
                   Answers to Post-Hearing Questions
Responses by Phil E. Depoy, Vice Chairman, Homeland Security Science 
        and Technology Advisory Committee (HSSTAC) Assessment Panel

Questions submitted by Chairman David Wu

Q1.  Currently the roles and responsibilities of IPT participants are 
not explicitly defined. What effect has this had on DHS customers and 
DHS S&T staff? How can DHS S&T better define these roles and 
communicate them to the participants?

A1. In response to your question about the effect of the lack of 
definition of roles and responsibilities of IPT participants, I 
mentioned in my testimony that each of the IPT working groups has 
developed their own processes for reviewing and prioritizing capability 
gaps. Each of the processes which the HSSTAC has reviewed have their 
own advantages and disadvantages, but I believe that it now time to 
review the processes developed by all the working groups, select the 
best practices, and document and standardize them across all IPTs. Each 
of the six Divisions within S&T has its own Transition Lead who works 
directly with the IPTs. These Leads should be responsible for 
communicating the standardized processes to the IPT participants and 
insuring that they are properly applied.

Question submitted by Representative Ben R. Lujan

Q1.  National Laboratories, such as the two Department of Energy 
National Labs in New Mexico, conduct a substantial amount of basic 
research. Can you elaborate on how the National Laboratories can stay 
tied into the basic research that is a part of the DHS S&T portfolio?

A1. In response to Vice Chairman Lujan's question about the National 
Laboratories being tied into the S&T basic research portfolio, the 
National Laboratories do receive basic research projects, but I 
understand that they are given more specific tasking than that which is 
given to the University Centers of Excellence. I mentioned in my 
testimony that within the past year, the Directorate has taken steps to 
increase the interaction of the Divisions with the COEs. The 
Directorate has accomplished this by aligning the COEs with individual 
Divisions and giving the Division Directors responsibility for 
communicating with the Directors of the COEs on a regular basis. The 
Division Directors are expected to keep the COEs informed about the 
work of the Divisions and in particular, about capability gaps for 
which no existing technologies are adequate. This appears to be working 
reasonably well with some of the University COEs, but to my knowledge, 
it has not been practiced with the National Laboratories, even though 
they are already aligned with specific Divisions. If my understanding 
is correct, it would seem to be relatively straightforward to extend 
this practice to include the National Laboratories. Also, the FFRDCs 
sponsored by the S&T Directorate are responsible for identifying 
requirements that no available technologies can fill. Perhaps a more 
direct tie can be made between the National Laboratories and the FFRDCs 
so that this information is available to them.
                   Answers to Post-Hearing Questions
Responses by David J. Berteau, Senior Advisor and Director, Defense-
        Industrial Initiatives, Center for Strategic and International 
        Studies, Washington, DC

Questions submitted by Chairman David Wu

Q1.  Currently the roles and responsibilities of IPT participants are 
not explicitly defined. What effect has this had on DHS customers and 
DHS S&T staff? How can DHS S&T better define these roles and 
communicate them to the participants?

A1. The breadth of topic areas covered by the S&T IPTs dictate against 
a single set of roles and responsibilities across all IPTs. I believe 
that DHS S&T should have each IPT, as part of its participant 
determination process, lay out participant roles and responsibilities 
at that time.

Question submitted by Representative Ben R. Lujan

Q1.  National Laboratories, such as the two Department of Energy 
National Labs in New Mexico, conduct a substantial amount of basic 
research. Can you elaborate on how the National Laboratories can stay 
tied into the basic research that is a part of the DHS S&T portfolio?

A1. As I noted in both my statement and in my responses to questions 
during the hearing, basic research is most valuable when it targets 
specific capability shortfalls. I believe that the DOE labs need to tie 
their research proposals to those specific shortfalls. This of course 
requires DHS to specify those shortfalls, which in turn depends upon a 
better strategic planning process and abetter capabilities assessment 
process within DHS.
                   Answers to Post-Hearing Questions
Responses by Cindy Williams, Chair, Panel on the DHS Science and 
        Technology Directorate, National Academy of Public 
        Administration; Shapiro Visiting Professor of International 
        Affairs, The Elliott School of International Affairs, George 
        Washington University; Principal Research Scientist, Security 
        Studies Program, Massachusetts Institute of Technology

Questions submitted by Chairman David Wu

Q1.  Currently the roles and responsibilities of IPT participants are 
not explicitly defined. What effect has this had on DHS customers and 
DHS S&T staff? How can DHS S&T better define these roles and 
communicate them to the participants?

A1. The roles and responsibilities of IPT participants are not 
explicitly defined. As a result, they vary substantially from one IPT 
to another. In some instances, the customers believe that their role 
should be to dictate the solution, instead of working with S&T to 
clarify their needs and letting S&T identify appropriate solutions. In 
other cases, S&T is overly involved in prioritizing the capability gaps 
for the customer. This lack of a clear, shared understanding of the 
roles and responsibilities of the various participants causes confusion 
among customers and frustration among the DHS S&T staff. It also means 
that some IPTs work far better than others.
    Because the work of the IPTs is a shared responsibility between DHS 
S&T and its customers, DHS S&T cannot define the IPT roles and 
responsibilities on its own. The National Academy of Public 
Administration (NAPA) Panel that I chaired found that some components 
took their work with S&T more seriously than others, and that the 
success of the IPTs correlated with the commitment of the customers to 
the IPT process. Defining roles and responsibilities jointly with the 
component customers could improve the components' levels of commitment 
to the process and the projects undertaken, thus strengthening the IPT 
process and improving S&T outcomes. The NAPA Panel recommended that the 
S&T Directorate work with its stakeholders to develop an IPT charter 
that delineates roles and responsibilities of participants, and 
establishes common terminology and standard operating procedures.
    At a minimum, I personally believe that such a charter should 
include descriptions of the roles and responsibilities of S&T staff and 
customer participants in identifying and prioritizing capability gaps, 
identifying potential solutions and estimating their costs, selecting 
solutions to pursue, developing transition plans for those solutions, 
developing schedules, milestones, and metrics for evaluating projects 
undertaken, evaluating and reporting on projects, and deciding when 
projects should be terminated.

Question submitted by Representative Ben R. Lujan

Q1.  National Laboratories, such as the two Department of Energy 
National Labs in New Mexico, conduct a substantial amount of basic 
research. Can you elaborate on how the National Laboratories can stay 
tied into the basic research that is apart of the DHS S&T portfolio?

A1. In FY 2009, 26 percent of DHS S&T's basic research was conducted by 
the Department of Energy (DOE) National Laboratories. (DOE's National 
Laboratories also play a significant, but separate role in the work of 
DHS's Domestic Nuclear Detection Office (DNDO) ). The Homeland Security 
Act of 2002 authorizes DHS to draw on the expertise of all government 
laboratories, and particularly on DOE's National Laboratories, to 
achieve its mission.
    The NAPA Panel that I chaired found that whenever possible, funds 
for basic research should be awarded through competitive processes that 
include external scientific peer review. Evaluating the impact of basic 
research is not possible over the short-term, so ensuring quality in 
design and execution of the work is critical. Additionally, competition 
for funding is a major factor in expanding the pool of researchers 
interested in working in certain areas--in this case homeland 
security--and consequently, expanding the Nation's capacity for that 
research.
    The extent to which competition is used in S&T's award of projects 
to the National Laboratories is unclear. Division research leads and 
others in the S&T Directorate told NAPA staff that funding is often 
directed to a specific laboratory without competition. On the other 
hand, they indicated that at times the National Laboratories do compete 
for S&T funding.
    The NAPA Panel found a climate of insularity in the DHS S&T 
community. Such insularity can hamper the identification of fresh 
approaches and stifle innovation. The Panel found that the practice of 
designating a specific laboratory to carry out work may reduce 
competition, thereby fostering that insularity. The Panel recommended 
that the Directorate make competitive processes that include external 
scientific peer review the norm for basic research. Such processes will 
help to increase S&T's confidence and that of its clients that the 
extent and nature of its basic research is thoroughly vetted and that 
the research being conducted--whether in one of the National 
Laboratories or elsewhere--is of the highest standards of excellence.
    The National Laboratories have recognized expertise, and partnering 
with the Laboratories can help DHS capitalize on the Laboratories' 
substantial funding from other sources. In 2008, the Directorate began 
to align the National Laboratories with its six technical divisions, 
based on matches between the mission requirements of the divisions and 
the technical capabilities of the various Laboratories. The intent is 
for individual technical divisions in S&T to learn more about what the 
individual Laboratories have to offer and for the Laboratories to learn 
more about the technical divisions' needs, to inform future project 
development and performer selection. The NAPA Panel that I chaired 
found that such alignments have the potential to support more 
productive relationships, increase S&T's success in leveraging National 
Laboratory work related to homeland security, and increase efficiency. 
We also found, however, that such alignments, along with the practice 
of designating an individual laboratory to do work, may further reduce 
competition and foster insularity. I personally expect that this 
tension between the expedience of exclusive ties with individual 
laboratories and the benefits of greater openness and competition will 
persist into the future.

</pre></body></html>
